<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: LABOR MOVEMENT PERSPECTIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   COMPREHENSIVE IMMIGRATION REFORM: 
                      LABOR MOVEMENT PERSPECTIVES 
=======================================================================
                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2007

                               __________

                           Serial No. 110-40

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

35-605 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


















                            C O N T E N T S

                              ----------                              

                              MAY 24, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3

                               WITNESSES

Mr. Jonathan Hiatt, General Counsel, American Federation of Labor 
  and Congress of Industrial Organizations (AFL-CIO)
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Mr. Fred Feinstein, Senior Fellow and Visiting Professor, 
  University of Maryland, Representing SEIU and UNITE HERE
  Oral Testimony.................................................    26
  Prepared Statement.............................................    27
Mr. Michael J. Wilson, International Vice President and Director, 
  Legislative and Political Action Department, United Food and 
  Commercial Workers International Union (UFCW)
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Mr. Bruce Goldstein, Executive Director, Farmworker Justice, on 
  behalf of Mr. Marcos Camacho, General Counsel, United Farm 
  Workers of America
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38
Mr. Vernon Briggs, Ph.D., Professor of Industrial and Labor 
  Relations, Cornell University
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Mr. Greg Serbon, State Director, Indiana Federation for 
  Immigration Reform and Enforcement
  Oral Testimony.................................................    48
  Prepared Statement.............................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     5

                                APPENDIX
               Material Submitted for the Hearing Record

``The AFL-CIO's Model for `Future Flow': Foreign Workers Must 
  Have Full Rights,'' submitted by Jonathan Hiatt, General 
  Counsel, American Federation of Labor & Congress of Industrial 
  Organizations (AFL-CIO)........................................    70
``Q&As on AFL-CIO's Immigration Policy,'' submitted by Jonathan 
  Hiatt, General Counsel, American Federation of Labor & Congress 
  of Industrial Organizations (AFL-CIO)..........................    73
``AFL-CIO Executive Council Statement: Responsible Reform of 
  Immigration Laws Must Protect Working Conditions for all 
  Workers in the U.S.,'' submitted by Jonathan Hiatt, General 
  Counsel, American Federation of Labor & Congress of Industrial 
  Organizations (AFL-CIO)........................................    78
``Fundamental Worker Protections in Foreign Temporary Worker 
  Programs'' by the Leadership Conference on Civil Rights, May 
  2007...........................................................    82
``Graft Mars the Recruitment of Mexican Guest Workers'' by 
  Elisabeth Malkin, The New York Times, May 24, 2007, page 3.....    84
``Close to Slavery: Guestworker Programs in the United States,'' 
  by Mary Bauer, the Southern Poverty Law Center, 2007...........    87
Prepared Statement of Terence M. O'Sullivan, Laborers' 
  International Union of North America (LIUNA) General President, 
  May 24, 2007...................................................   137


     COMPREHENSIVE IMMIGRATION REFORM: LABOR MOVEMENT PERSPECTIVES

                              ----------                              


                         THURSDAY, MAY 24, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:15 a.m., in 
Room 2142, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Delahunt, Sanchez, Ellison, Conyers, and Gallegly.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; J. Traci 
Hong, David Shahoulian, Majority Counsel; George Fishman, 
Minority Counsel; and Benjamin Staub, Professional Staff 
Member.
    Ms. Lofgren. The hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public who are here 
today for the subcommittee's 13th hearing on comprehensive 
immigration reform.
    Our series of hearings on comprehensive immigration reform 
began at Ellis Island where we examined the need for 
comprehensive immigration reform to secure our borders, to 
address economic and demographic concerns; and there we 
reviewed our Nation's rich immigrant history. We have studied 
immigration reform from 1986 and 1996 in the effort to avoid 
the mistakes of the past. We have considered the problems with 
and have proposed solutions for our current employment and 
worksite verification system. In light of the recent Senate 
immigration agreement to eliminate family priorities in 
immigration and replace those priorities with a completely new 
point system, we have studied the contributions of family 
immigrants to America and various immigration point systems 
used around the world. We have explored the costs of 
immigration on our States and localities, and last week we had 
two hearings to explore the importance of immigrant integration 
and the future of undocumented immigrant students in the United 
States.
    This week we have turned our attention to organizations and 
individuals who represent the vast majority of individuals who 
will be directly affected by comprehensive immigration reform. 
This past Tuesday we heard from faith-based and immigrant 
communities. And today we will explore the positions and 
viewpoints of labor unions, especially in light of the recent 
action in the Senate that yielded an immigration agreement 
being debated there this week.
    The legislative proposals for comprehensive immigration 
reform currently being considered in the Senate would allow for 
the temporary entry of hundreds of thousands of new foreign 
workers into the U.S. labor force. As such, U.S. workers and 
labor unions who represent those workers have a stake in the 
debate in which to ensure that any enacted legislation 
addresses the issue of safeguarding the welfare of U.S. 
workers.
    The subcommittee has held two hearings, one called by the 
majority and one by the minority, on the impact of foreign 
workers on the Nation's economy and workforce. The 
subcommittee, however, has not yet been afforded the 
opportunity to hear from you. Perhaps more importantly, the 
subcommittee has not had the opportunity to review the history 
of temporary worker programs and the state of current labor 
protections within the Immigration and Nationality Act. A 
better understanding of current labor protections and the 
effect of foreign workers in different industries will help the 
subcommittee in its consideration of comprehensive immigration 
reform.
    So we thank you, distinguished witnesses, for being here 
today to help us sort through what is a complex and extremely 
important issue.
    I would now like to recognize our Ranking Member, 
Congressman King, for his opening statement.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's thirteenth 
hearing on comprehensive immigration reform.
    Our series of hearings on comprehensive immigration reform began at 
Ellis Island, where we examined the need for comprehensive immigration 
reform to secure our borders, to address economic and demographic 
concerns, and there we reviewed our nation's rich immigrant history. We 
have studied immigration reform from 1986 and 1996 in an effort to 
avoid the mistakes of the past. We've considered the problems with and 
proposed solutions for our current employment and worksite verification 
system. In light of the recent Senate immigration agreement to 
eliminate family priorities in immigration and replace those priorities 
with a completely new and untested point system, we studied the 
contributions of family immigrants to America and various immigration 
point systems used around the world. We have explored the costs of 
immigration on our states and localities. Last week, we had two 
hearings to explore the importance of immigrant integration and the 
future of undocumented immigrant students in the United States.
    This week we turn our attention to organizations and individuals 
who represent the vast majority of individuals who will be directly 
affected by comprehensive immigration reform.
    This past Tuesday, we heard from the faith based and immigrant 
communities. Today, we will explore the positions and viewpoints of 
labor unions, especially in light of recent action in the Senate 
yielding an immigration agreement being debated in the Senate this 
week.
    The legislative proposal for comprehensive immigration reform that 
is currently being considered in the Senate would allow for the 
temporary entry of hundreds of thousands of new foreign workers into 
the U.S. labor force. As such, U.S. workers and the labor unions that 
represent those workers have a stake in the debate and wish to ensure 
that any enacted legislation addresses the issue of safeguarding the 
welfare of U.S. workers.
    The Subcommittee has held two hearings, one called by the majority 
and one by the minority, on the impact of foreign workers on the 
nation's economy and workforce.
    The Subcommittee, however, has not yet been afforded the 
opportunity to hear from labor unions. Perhaps more importantly, the 
Subcommittee has not had the opportunity to review the history of 
temporary worker programs or the state of current labor protections 
within the Immigration and Nationality Act. A better understanding of 
current labor protections and of the effect of foreign workers in 
different industries will help the Subcommittee in its consideration of 
comprehensive immigration reform.
    Thank you again to our distinguished witnesses for being here today 
to help us sort through what is a complex and very important issue.

    Mr. King. Thank you, Madam Chair, and I thank you for this 
hearing today.
    I thank the witnesses for appearing before this panel, and 
I understand, to a significant degree, the hoops that some of 
you have to jump through, from perhaps missing a red-eye flight 
to getting an early wake-up call. And I think the public does 
not appreciate the sacrifice that you all make for an 
opportunity to be able to speak some words into the public 
record. What we need to do here is listen to that input and 
evaluate it. So let me start off by quoting Cornell University 
Professor Vernon Briggs.
    We do listen when you come here, Professor.
    In one of those statements, it says--this is a quote--
``Samuel Gompers was chosen as President of the new American 
Federation of Labor in 1886, and with the exception of 1 year, 
he held that office until he died 38 years later, in 1924. 
Gompers was himself a Jewish immigrant from England, as were 
many of the members and leaders of the unions affiliated with 
the AFL. From his earlier days of involvement in his own craft 
union, the Cigar Makers, Gompers became intimately aware of 
immigrants' adverse effects on its members' wages and 
employment opportunities. Indeed, it was his own union that in 
1872 introduced in San Francisco the usage of the union label 
to distinguish for the consumers the best cigars produced by 
workers employed under a union agreement from those manmade by 
nonunion immigrant workers.''
    That was an original view on where the song came from that 
Al Gore grew up singing, ``look for the union label.''
    ``Thus, despite his own immigrant roots, Gompers recognized 
that organized labor's first responsibility was to protect the 
economic well-being of workers and not immigrants per se, and 
that is when there was a conflict in their respective 
interests,'' close quote.
    What a difference 100 years make. In fact, what a 
difference 20 or 21 years make. American unions were some of 
the strongest supporters of employers' sanctions that were 
enacted as part of the Immigration Reform and Control Act of 
1986. Yet now, unions are fairly unanimously seeking amnesty 
for 12 to 20 or more million illegal immigrants in America.
    I hope to learn more at this hearing about why America's 
labor movement has reversed course and no longer believes that 
mass levels of immigration hurt rank-and-file members. We will 
hear from a rank-and-file member about what he thinks about the 
decisions of union leaders. When there is an excess of supply, 
of labor, employers are able to cut wages. Illegal immigrants 
and large-scale temporary worker programs can reduce wages and 
take jobs from both citizens and legal immigrants. The illegal 
immigration largely impacts low-skilled Americans, and guest 
worker programs can impact higher-skilled Americans, but let us 
focus on low-skilled Americans who would be most severely 
impacted by amnesty.
    A study by Harvard economist George Borjas shows that cheap 
immigrant labor has reduced by 7.4 percent the wages of 
American workers performing low-skilled jobs. A report by the 
Center for Immigration Studies concludes that immigration may 
reduce the wages of the average native in a low-skilled 
occupation by $1,915 per year, on average.
    Contrary to the assertion that Americans will not take low-
skilled jobs, Americans in fact do these jobs every day. Some 
claim that illegal immigrants are doing jobs that Americans 
will not do, but when an illegal immigrant finds a job here, 
that does not mean that no Americans will take the job. In 
fact, 79 percent of all service workers are native-born, as are 
68 percent of all workers in jobs requiring no more than a high 
school education. Illegal immigrants make up only 17 percent of 
workers in building cleaning and maintenance occupations, 14 
percent of private household workers, 13 percent of 
accommodation industry workers; they make up only 13 percent of 
food manufacturing and industry workers, 12 percent of the 
workers in construction and extraction occupations, and only 11 
percent of workers in food preparation and serving occupations 
and 8 percent of workers in production occupations.
    We must put citizens and legal immigrants first. Americans 
need these jobs: 17 million adult citizens do not have a high 
school degree, 1.3 million are unemployed, and 6.8 million have 
given up looking for jobs. The percentage of 16- to 19-year-
olds holding jobs in the United States is now at its lowest 
point since 1948. And of those who are simply not in the 
workforce, of working age, there are 69 million Americans to 
recruit these 7 million to replace the illegal workers from. 
Rather than legalize illegal immigrants, we should enforce the 
laws on the books. That will reduce illegal immigration, 
increase wages, and make many jobs more attractive to American 
workers.
    The result of a large low-skilled immigrant workforce is 
that the most vulnerable Americans must compete with those 
illegal immigrants for jobs. Illegal immigrants deprive 
American citizens and legal immigrants of the same American 
dream. That is wrong and regrettable.
    I look forward to some enlightenment on how it is that the 
unions in this country can think that you could suspend the law 
of supply and demand with regard to that most valuable 
commodity of labor, and flood the marketplace and expect that 
you can keep wages and benefits up for the workers who you are 
pledged to protect.
    With that, Madam Chairman, I would yield back the balance 
of my time.
    The gentleman yields back.
    Ms. Lofgren. Other Members of the Committee, by unanimous 
consent, will put any opening statements they have in the 
record, and we will reserve the opportunity for the Chairman of 
the Committee and for the Ranking Member of the full Committee, 
when they arrive, to deliver their statements.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
   Judiciary, and Member, Subcommittee on Immigration, Citizenship, 
            Refugees, Border Security, and International Law
    We have heard in two prior hearings about the effect of immigration 
on U.S. workers. Before we proceed, I would like to summarize those 
hearings.
    Some economists say immigration has a great effect; some say it is 
minimal. Some say that immigration is wonderful, while their opponents 
seem to claim that every immigration program is an amnesty that hurts 
American workers. Some say that immigration reform is necessary because 
it is in keeping with our Civil Rights traditions, while others doubt 
that new immigrant communities will ever assimilate, and in fact might 
spell the end for America.
    We have heard some new voices cry out for protection of African-
American jobs. But those voices are not necessarily ones we hear on 
other critical issues like full employment, education, and the jailing 
of our young men. It bears repeating: the legitimate interest in 
protecting American workers must not be used illegitimately to drive 
wedges among ethnic groups. We have seem the advertisements and heard 
the example that jobs in one African-American community were now going 
to immigrants. But which immigrants? Haitians and Jamaicans. I and 
others have fought hard to ensure that immigration policies are fair to 
Caribbeans and Africans; driving wedges among the various Black 
communities in the name of derailing immigration reform is not in the 
spirit of our work or of the Civil Rights movement.
    For those who profess concern about American jobs, you need to be 
identifying pragmatic solutions, not just crying ``amnesty'' and 
opposing the hard and necessary challenge of immigration reform. We 
need more serious and innovative proposals such as that put forth by 
Ms. Jackson-Lee to use immigration fees to fund job training programs. 
This proposal takes us out of the think tanks and into the real world.
    That's why today's hearing is so important. Today, we have a chance 
to hear about some of the real-world solutions to the need to protect 
workers from exploitation and abuse, from the very entities who exist 
to give workers a voice. I am proud to welcome the representatives from 
organized labor today.
    Much of the debate over immigration has centered on guestworker 
programs and legalization, and I look forward to hearing the panel's 
thoughts on these issues.
    First, the undocumented: There are about 7.2 million unauthorized 
workers, representing about 4.9% of the labor force. In certain 
industries, there is a higher share 14% in food manufacturing, 13% of 
agricultural workers, and 12% of construction workers. Thus, many 
workers in industries represented by our panel are undocumented and 
unprotected. Bringing them out of the shadows can enable these unions 
to perform their traditional roles of protecting and organizing the 
workers. We have heard that unions were critical players in 
assimilating immigrants into American society. How best can we 
structure a program that will meet the needs of both the economy and 
the workers?
    And then there is the issue of the guestworker programs. All agree 
that such programs should not create a permanent underclass. I 
understand that there is some disagreement on how best to avoid that, 
and I am interested in hearing the various viewpoints.
    Some important questions occur when thinking about guestworker 
programs:

        How can we ensure that there are meaningful protections against 
        worker exploitation, including mistreatment all the way to the 
        level of involuntary servitude?

        What kind of protections should be put in place to guard 
        against false promises or abuse by labor brokers as well as bad 
        apple employers?

        What should the role of organized labor be with these workers? 
        We already have guestworker programs--how can they be improved?

        Does it make sense--whether for the worker, the employer, or 
        our country--to have arbitrary rules requiring workers to go 
        home or to skip a year of employment?

        Is restricting guestworkers' ability to come in with family a 
        positive restriction, or will it create isolation and even 
        encourage illegal immigration?

        Should there be a path toward eventual legal status or 
        citizenship? Should there be some credit toward such programs?

        What kind of safeguards could be built in to ensure that these 
        workers are not being used to undercut organizing efforts or to 
        drive down wages?

    Again, I welcome the panelists, and look forward to today's 
discussion.

    Ms. Lofgren. In the interest of proceeding to our 
witnesses, I am happy to introduce you all. We have a 
distinguished panel of witnesses today.
    I am first pleased to extend our welcome to Jonathan Hiatt, 
General Counsel of the AFL-CIO. Mr. Hiatt has served in this 
capacity since his appointment in 1995 by the Federation's 
President, John Sweeney. Prior to his work as General Counsel, 
Mr. Hiatt served for 8 years as the General Counsel of the 
Service Employees International Union. He directs the AFL-CIO's 
lawyers' coordinating committee, and he sits on several boards 
of directors, including those of the National Employment Law 
Project and the D.C. Employment Justice Center. He earned his 
bachelor's degree from Harvard College and his law degree in my 
area, at the University of California-Berkeley, Boalt Hall 
School of Law.
    Next I am pleased to introduce Fred Feinstein, Senior 
Fellow and Visiting Professor at the University of Maryland, 
today representing SEIU and UNITE HERE. Mr. Feinstein formerly 
worked as a General Counsel at the National Labor Relations 
Board and prior to his work at the Labor Relations Board. Mr. 
Feinstein served as the Chief Labor Counsel and Staff Director 
of the House's Labor Management Relations Subcommittee for a 
total of 17 years. He was a lead staffer on the Family Medical 
Leave Act and the Worker Adjustment and Retraining Notification 
Act. Among his many other distinguished teaching posts, he was 
an elementary public school teacher in East Harlem, New York. 
He earned his bachelor's degree from Swarthmore College and his 
law degree from Rutgers Law School.
    I would like next to welcome Michael Wilson, the 
Legislative Political Affairs Director of the United Food and 
Commercial Workers International Union, the UFCW. Mr. Wilson 
has served in this capacity at the UFCW since 2005, having 
served as the union's chief lobbyist for 6 years. Within former 
President Clinton's administration, he served as the Chief of 
Staff for the Assistant Secretary of Labor of the Employment 
Standards Administration and as a Senior Legislative Officer in 
the Office of Congressional and Intergovernmental Affairs at 
the Labor Department. In the early years of his career, he 
served as a legislative and press assistant for former 
Congressman Charles Hayes of Illinois.
    We have a substitution. Unfortunately, Marcos Camacho, the 
General Counsel for the United Farm Workers of America, had a 
disruption on his flight, and so he did not land at Dulles this 
morning. Bruce Goldstein, the Executive Director of the Farm 
Worker Justice Group, is here in his stead to submit his 
statement. Bruce Goldstein joined the Farm Worker Justice Group 
as a staff attorney in 1988, and then he served as co-Executive 
Director starting in September 1995, when he was named 
Executive Director in July of 2005. He received his bachelor's 
degree in 1977 from the New York State School of Industrial and 
Labor Relations at Cornell University and his law degree from 
Washington University in St. Louis. He has worked at the 
National Labor Relations Board; at a legal services office in 
East St. Louis, Illinois; and in private law practice--
concentrating in labor law, personal injury, and civil rights. 
We thank you for your attendance.
    Finally, I would like to welcome our minority party's 
witnesses, the first of whom is Dr. Vernon Briggs, Emeritus 
Professor of Industrial and Labor Relations at Cornell. A 
prolific university scholar, Dr. Briggs has served as an 
advisor to a host of Federal agencies, among them the 
Department of Labor; the Department of Health, Education, and 
Welfare; and the U.S. Civil Rights Commission. He has served as 
a board member of the Center for Immigration Studies since 
1987. He earned his bachelor's degree from the University of 
Maryland and his master's and doctorate degrees from Michigan 
State University. This is Dr. Briggs' second appearance before 
this subcommittee on the topic of comprehensive immigration 
reform. We welcome you back.
    We also have Greg Serbon with us, the State Director of the 
Indiana Federation for Immigration Reform and Enforcement. Mr. 
Serbon was a member of the Teamsters Union, Local 738, in 
Chicago, Illinois from 1981 to 1987. He has been a member of 
the Pipefitters Local 597 in Chicago from 1988 to the present, 
and since 2004 he has directed Indiana's Federation for 
Immigration Reform and Enforcement.
    As I believe all of you have been advised, your entire 
statements will be made part of our official record. We would 
ask that you summarize your testimony in about 5 minutes. There 
are little machines on the desk. When the light turns yellow, 
it means you have only 1 minute to go, and when the light turns 
red, it means you have actually used 5 minutes. This always 
comes as a surprise because the time just runs, but we would 
ask that you try and wrap up when the time is up.
    I am just very pleased to be here. I was thinking, as I was 
looking at you, that my grandfather, who was an immigrant, was 
a Teamster his whole life, and my father was Recording 
Secretary of his Local 888 in California, and my mom's dad was 
a machinist, and my grandmother was a machinist. What you talk 
about today means a great deal to me, personally, and I think 
to the country generally.
    So let us begin with you, Mr. Hiatt.

    TESTIMONY OF JONATHAN HIATT, GENERAL COUNSEL, AMERICAN 
 FEDERATION OF LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS 
                           (AFL-CIO)

    Mr. Hiatt. Thank you very much, Madam Chairman and Members 
of the Committee. Thank you again for this opportunity. We have 
been invited to share the labor movement's perspective, so I 
intend to focus on the areas of immigration policy that have 
the greatest impact on workers.
    The AFL-CIO has called on Congress to legalize the status 
of the growing undocumented immigrant workforce, which as long 
as it exists in the shadows is negatively impacting all 
workers, foreign- and U.S.-born. We have also strongly opposed 
the perpetuation of the inherently abusive temporary guest 
worker programs. We have advanced this position both because it 
is morally just and humane and because current policies have 
brought about a two-tiered workforce consisting of one class of 
permanent U.S. residents with full workplace rights and another 
of undocumented and temporary guest workers with few workplace 
protections of any kind. These policies have offered employers 
a ready pool of exploitable labor in this country and depressed 
wages, benefits, health and safety protections, and other labor 
standards for everyone else. Let me offer you a couple of 
examples as to how this occurs.
    In 2005, a group of temporary worker program construction 
workers in North Carolina who had been raising health and 
safety concerns received a flyer at work instructing them to 
attend a mandatory health and safety meeting. The flyer was 
printed on OSHA letterhead, but when they arrived at the 
meeting, there were no OSHA officials present. Instead, ICE 
officials were waiting. They arrested more than 20 workers and 
placed them into deportation proceedings.
    More recently, a group of forestry workers in Virginia who 
had been brought into the country under the H-2B guest worker 
program, filed a complaint alleging violations of minimum wage 
and overtime laws as well as State claims relating to their 
housing conditions. They had been forced to live in a warehouse 
surrounded by barbed wire. They were locked into the warehouse 
at night. They had substantial portions of their paychecks 
deducted to cover for this housing. During the plaintiffs' 
depositions, the police, together with the employer, called the 
DHS, whose agents arrived at the facility about 2 hours later. 
Ultimately, the plaintiffs were able to convince DHS that this 
was a labor dispute in which it should not be involved, and the 
agents left. But in both of these examples, you can imagine the 
chilling effect of the employer's actions that was felt by all 
of the workers.
    These scenarios are not uncommon. Undocumented and guest 
worker status have given employers a powerful tool to use in 
their attempts to repress worker rights. A recent report by 
Human Rights Watch, that we put into the record, that focused 
on the meatpacking industry, shows that employers commonly take 
advantage of workers' fear of drawing attention to their 
status, just to keep workers in abusive conditions that violate 
basic human and labor rights.
    So the labor movement recognizes that comprehensive 
immigration reform is long overdue, but we fear that the 
legislative proposals that are pending before Congress do not 
address the root problems and would only make matters worse. 
Instead, we believe that the answer to the immigration crisis 
is to reform immigration law in a way that places worker rights 
at the forefront and would remove the economic incentives to 
exploit immigrant workers that are currently driving illegal 
migration. Our approach has three core principles:
    One, the law has to provide a fair and effective mechanism 
by which the roughly 12 million undocumented workers in the 
country today can regularize their status. Two, foreign workers 
in the future must come into the U.S. with full and equal 
access to workplace protections through the permanent visa 
system. Three, enforcement of labor laws must go hand in hand 
with enforcement of immigration laws.
    All three of these principles are addressed at some length 
in my written testimony, as are the fundamental worker 
protections that we believe must be built into any temporary 
worker program, whether the existing H programs or any other 
version.
    So let me just conclude with a brief explanation about our 
position on future flow, itself.
    We recognize that even with the legalization of the current 
undocumented population, there will continue to be a need from 
time to time, in discrete sectors and in varying locations, for 
workers beyond those available and willing to work at 
prevailing wages and working conditions domestically. We do not 
agree, however, that such needs, especially for permanent work 
as opposed to seasonal or short-term jobs, should be met 
through the guest worker programs or what are now being called 
by some ``temporary worker visa programs.''
    Proponents of these programs claim that we need guest 
workers to do the jobs that Americans will not do. However, the 
reality is that there are no jobs that Americans will not do if 
the wages and working conditions are adequate. Of the BLS' 473 
occupational titles, only four today are even majority foreign-
born, and even in the low-wage sectors--hospitality, 
janitorial, landscaping, poultry, for example--a great majority 
of the staffing nationwide is by U.S. workers.
    Until now, guest worker programs have been limited to 
filling temporal shortages. The pending bills would represent 
an enormous policy change, giving the business community an 
enormous windfall--the right for the first time to fill 
permanent, year-round jobs with exploitable temporary workers. 
The result would be to pit foreign workers against U.S. 
workers, an even further depression in wages and working 
conditions.
    So our solution to the acknowledged need for future flow is 
to restructure the current permanent employment visa category 
in a way that reflects real market conditions and guarantees 
full labor rights for future workers. Rather than setting an 
arbitrary cap or one based on political compromise, we propose 
the number be adjusted to reflect real, independently 
determined employer needs for long-term shortages, with workers 
admitted with a green card and with permanent status from the 
outset, that there is no justification for bringing them in 
with anything less than the same set of workplace rights and 
protections that apply to all workers.
    Thank you.
    Ms. Lofgren. Thank you very much, Mr. Hiatt.
    [The prepared statement of Mr. Hiatt follows:]
                Prepared Statement of Jonathan P. Hiatt

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Mr. Feinstein.

    TESTIMONY OF FRED FEINSTEIN, SENIOR FELLOW AND VISITING 
PROFESSOR, UNIVERSITY OF MARYLAND, REPRESENTING SEIU AND UNITE 
                              HERE

    Mr. Feinstein. Thank you, Madam Chairwoman. It is a 
pleasure to be here today.
    My name is Fred Feinstein, and I am testifying today on 
behalf of SEIU and UNITE HERE--two unions that together 
represent more than 2.2 million workers, a significant 
percentage of which are immigrants. Along with each of the 
union witnesses here today, SEIU and UNITE HERE believe that 
our system of immigration is fundamentally broken. The status 
quo is unfair to immigrant workers and unfair to all workers in 
this country.
    Comprehensive immigration reform is a critical challenge we 
face as our country goes through one of its most rapid economic 
transformations in its history. As many have said to this 
Committee, reform has to be comprehensive if it is to succeed. 
SEIU and UNITE HERE support a fair, practical, and tough 
proposal that will bring an estimated 12 million undocumented 
individuals out of the shadows, reunite families, secure our 
borders, and create a legal channel for new workers to enter 
our country and join our civic society.
    Reform must start with a workable plan to legalize the 
undocumented population. It is in all of our interests to 
eliminate the vulnerability of this population of workers 
because it is undermining the working conditions of all 
workers. Provisions that place serious barriers to legalization 
like cumbersome and risky, so-called ``touch-back 
requirements,'' will discourage people from coming forward, and 
the problems of an undocumented population will continue.
    A workable legalization program is part of what is needed 
to end the flourishing underground economy that is not only 
exploiting workers, both immigrant- and native-born, but is 
draining resources from our communities across the country. 
Those who claim it would be wrong to provide a means for 
legalization of the undocumented worker conveniently overlook 
that it is employers, consumers, homeowners, building owners, 
and many others who have benefited from the hard work of the 
undocumented worker. The people who oppose legalization never 
acknowledge that, demanding stiff sanctions for the immigrant 
while supporting, quote, ``amnesty'' for those who have 
benefited from their hard work.
    Once we address the past failures of our immigration 
system, we have to move forward to implement the program that 
is fair to all workers. It is essential that fundamental labor 
protections be in place if a new worker program is to succeed. 
While there are some differences in some aspects of immigration 
reform, I believe that all unions agree that adequate labor 
protections are of the utmost importance. In my remaining time, 
I will describe the labor protections that we believe are 
essential to the success of immigration reform.
    First, workers lawfully entering this country must be 
provided the opportunity to remain in this country. Some who 
come here to work will want to return home after a period of 
time, but that should be a choice, not a mandate. Workers who 
know they will be forbidden to stay do not have the same 
interests and concerns of their coworkers. Their interests are 
short term and immediate. With a temporary status, they do not 
have the same stake in upholding and enforcing workplace 
standards. They do not have the same motivation or ability to 
support and build decent workplace conditions, and they can do 
little when unscrupulous employers take advantage of them in 
ways that undermine the broader interests of all workers. 
History has taught us that temporary worker programs create a 
second-class status for immigrant workers, to the detriment of 
all workers, and all such programs have failed in the past.
    A second fundamental labor protection is that immigrant 
workers have the same rights and mobility as all workers. When 
they do not, it again creates the opportunity for exploitation 
by the unscrupulous employer at the expense of workers and 
employers who play by the rules. Responsible employers are 
placed at a competitive disadvantage when competitors can drive 
down labor costs by taking advantage of workers who lack 
adequate labor protections. Likewise, when an employee cannot 
leave an abusive employer, all workers and responsible 
employers suffer. Immigration law must not provide any employer 
with these kinds of opportunities.
    Another critical element to protecting the rights of all 
workers is assuring that no more workers than needed are 
authorized to enter this country. By developing accurate 
measures of labor market needs, the appropriate number for the 
future flow of workers should be set at a level that first and 
foremost does not create a downward pressure on wages or 
working conditions. It is a number that should not be arbitrary 
or inflexible but be based on reliable assessments that new 
workers will not undermine the working conditions of both 
immigrant- and native-born workers.
    Finally, there must be adequate enforcement of labor 
protections. One of the historic problems of our immigration 
system has been the failure to enforce labor protections. 
Enforcement mechanisms and penalties that effectively deter 
violations are essential in assuring that labor protections are 
more than hollow promises.
    Thank you for this opportunity.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Feinstein follows:]
                  Prepared Statement of Fred Feinstein
Madam Chairwoman and distinguished members of the Subcommittee:
    My name is Fred Feinstein. I am testifying on behalf of the Service 
Employees International Union and UNITE/HERE. I am also a senior fellow 
and visiting professor at the University of Maryland. I served as 
General Counsel of the National Labor Relations Board from 1994 through 
1999, as well as Chief Counsel of the Labor Management Relations 
Subcommittee in the House of Representatives where I worked from 1977 
to 1994.
    With 1.8 million members, the Service Employees International Union 
is America's largest union of health care workers, property services 
workers, and the second largest union of public services workers. SEIU 
is also the largest union of immigrants, representing thousands of U.S. 
immigrants from diverse backgrounds and places of origin. Many of these 
members perform some of our nation's most needed, yet under valued work 
that is essential to our economy, families and communities.
    UNITE/HERE's 440,000 members work in the hotel, restaurant, food 
service, laundry, garment and apparel industries. Immigrants make up a 
large percentage of its membership. In 2003 the UNITE/HERE and SEIU 
sponsored the historic Immigrant Workers Freedom Ride, which for the 
first time knit together labor, immigrant advocates, clergy, and 
community organizations in the struggle for comprehensive immigration 
reform. These unions lead the dramatic reversal of the AFL-CIO policy 
in 2000 repudiating employer sanction and calling for repeal and 
support of comprehensive immigration reform.
    Comprehensive immigration reform is a critical challenge we face as 
our economy goes through the most rapid transformation in history. To 
that end, SEIU and UNITE/HERE have long advocated for reforms that 
would fix our broken immigration system so that we may bring order out 
of chaos, protect America's working communities, and restore fairness.
      today's broken immigration system and its impact on workers
    We have seen first hand how the system is broken. It's broken 
because hard working people across the country have to live in the 
shadows, afraid of what lies around the corner. Employers, consumers 
and numerous others benefit significantly from their presence, but they 
remain vulnerable, exploitable and subject to harsh sanction at any 
minute. They live with the constant fear that they will be separated 
from families, loved ones, friends, neighbors and the communities they 
have helped to build in many cases for decades. The immigration system 
is broken because vulnerable immigrant workers are exploited in ways 
that are not only inhumane and unjust but that also undermine the 
conditions faced by all workers, especially those in low wage 
industries. The status quo is unfair to the immigrant and unfair to all 
workers.
    As Congress debates the nuts and blots of reform legislation, let 
us not forget the real people this debate touches. Ercilia Sandoval, 
from El Salvador is an active member of SEIU and works as a janitor for 
GCA Services in Houston Texas. Ercilia is a mother of two young girls, 
and came to the U.S. under temporary protected status. She works the 
night shift so that she can care for her children during the day. But, 
like so many janitors, the $8/ per hour salary is often not enough to 
make ends meet. Life got even harder for Ercilia last year when she 
found out that she had rapidly advancing breast cancer. Without access 
to health insurance, Ercilia had to wait months until she was able to 
receive chemotherapy treatment. Today, she is continuing the fight for 
her life, for her family, and for her rights. In fact, she is leading 
her local union's fight for health care access for janitors. Ercilia 
works hard, plays by the rules and wants a better life for her 
children--as do all workers.
    The two unions have countless success stories of immigrant workers 
who are working hard everyday, paying taxes, and joining with their 
union brothers and sister to improve the wages, hours and working 
conditions. Many become union stewards and leaders, helping to ensure 
workers rights in the workplace, those who become U.S. citizens are 
leaders in civic life and become active in political campaigns. Take, 
Alba Vasquez, an immigrant from Uruguay, who works as at Madison Square 
Garden in New York City. In addition to her 3p.m. to 11 p.m. shift at 
Madison Square Garden, Alba worked a second job during the day so that 
she could afford to put her four children through Catholic school. Now 
that her children have grown, Alba has embraced her rights as a U.S. 
citizen and as a voter. She is active in her local union's campaign to 
fight for economic development that will guarantee god jobs, affordable 
housing, and a leader in the campaign for health care for all. There 
are millions more Alba's in the U.S. today that are awaiting the 
opportunity to more fully enrich our nation. As they wait, however, 
their lives are too often driven by fear and unnecessary hardship.
    Under today's current broken system, both native and immigrant 
workers are under attack. Allowing unscrupulous employers hire 
undocumented workers cheats all workers out of fair wages, deny basic 
labor rights, and fire--or deport--anyone who seeks speaks up or 
asserts their labor rights. The exploitation of undocumented workers 
chips away at hard-earned labor rights, and drives down wages for all 
U.S. workers. At a time when wages for working Americans are stagnant 
and opportunities to rise up the economic ladder are disappearing, this 
shadowy culture of exploitation is particularly unacceptable.
    Until we fix the root causes for the broken system, U.S. 
communities will continue to experience disruptive raids, family 
separation, and unnecessary economic hardship. While enforcement is 
critical to comprehensive reform and U.S. security, seemingly arbitrary 
raids on working communities will not achieve our large goals of fixing 
the broken system. Instead, an increasing number of work place raids 
like those at Swift and New Bedford will create more chaos and family 
tragedies that hurt communities. We need a more workable approach that 
is inline with reality and matches our economic needs and our values.
                      the comprehensive solution:
    Last November, voters sent a strong message to elected leaders that 
Americans want Congress to fix our nation's problems, including our 
failed immigration system. Candidates who ran on anti-immigrant, anti-
immigration, and enforcement-only messages lost their races because 
voters saw through the political rhetoric, not solving the problem. 
Voters know that deporting 12 million individuals is unrealistic and 
morally repugnant. Americans understand that we need to make our system 
match our Nation's economic goals, and then we need to make sure it's 
fair, sustainable, and enforceable.
    To that end, SEIU and UNITE/HERE support a fair, practical and 
tough proposal that will bring out of the shadows an estimated 12 
million undocumented individuals, reunite families, secure our borders 
and create a legal channel for new workers to enter our economy, have 
workplace protections, and join our civic society. Hard working, tax-
paying immigrants who are living in this country should be given the 
opportunity to come forward, pay a fine, and earn legal status and a 
path toward citizenship. This will enhance border security and buttress 
our economy.
    SEIU and UNITE/HERE are committed to the following provisions being 
included in this year's comprehensive immigration reform legislation:
    Legalization--In order to end illegal immigration as we know it, we 
must enact laws that ensure that every job in this country is held by 
an individual legally authorized to work in this country. Congress 
should not be satisfied with a program that is less than comprehensive. 
We must face reality that long-term undocumented individuals, but 
otherwise law-abiding workers will not leave the country voluntarily.
    We must all agree that if legalization is less than comprehensive 
and includes hurdles that are sure to deter people from participating; 
undocumented workers will continue to fuel an underground economy, with 
negative impacts on all workers, employers, and communities. We must 
put an end to a system in which employers avoid payroll taxes, deprive 
communities of other revenues and receive an unfair advantage over law-
abiding competitors by violating labor laws. All of us as taxpayers 
pick up the tab when our broken immigration system allows employers to 
cheat our communities out of needed revenues. The benefits of a 
comprehensive and workable legalization program are clear: high levels 
of participation in the legalization program put significant pressure 
on employer's to comply with withholding requirements and labor 
protections as it becomes more difficult for unscrupulous employers to 
prosper in an underground economy.
    Because a goal of any legalization program should be to legalize as 
many people as possible, it is counterproductive to include provisions 
that would erect permanent barriers to people achieving lawful status. 
Any bill that places serious burdens on legalization such as requiring 
people to leave the county or placing insurmountable obstacles on the 
path to legalization for some people is unworkable. Again, the 
legalization provisions must be expansive to ensure as many 
undocumented as possible participate, not make ineligible the very 
people who need to come out of the shadows.
    We are committed to shrinking the undocumented population, so that 
our law enforcement officials can concentrate their resources on those 
who would do us harm. Rounding up dishwashers, meat cutters, factory 
workers, mothers and fathers is not a good or productive use of our law 
enforcement resources.
    Those who claim it would be wrong to provide a means for 
legalization of the undocumented conveniently overlook that it is 
employers, consumers, homeowners, building owners and many others who 
have benefited from the hard work of undocumented workers. We all 
benefit when they clean our offices and hotel rooms, care for our 
children, and tend to our family members when they are sick or in need. 
The people who oppose immigration reform never acknowledge that they 
are demanding stiff sanctions for the immigrant while supporting 
``amnesty'' for those who have benefited from their hard work.
    New worker program--SEIU and UNITE/HERE recognize the need for new 
workers in the low-wage sector of our expanding economy. However, any 
new worker program must include worker protections including: 
portability of visas so that workers can change jobs, the right to join 
unions and have full labor rights, the right of immigrants to bring 
their families with them, and the ability to self-petition for 
permanent residency and citizenship. Visas should not be tied to 
employers who can threaten workers with deportation if not compliant. 
We must craft a new worker program that will include accurate 
mechanisms to determine the labor market need for workers. We must 
transform the current illegal flow into a program with legal channels 
that lead to an increased number of permanent work authorizations. 
Finally, any new worker program should include sufficient enforcement 
resources to ensure the effective implementation of labor rights of 
both U.S. citizens and new worker visa holders.
    Looking at the question of labor protections in more detail, there 
are several kinds of labor protections that are needed to assure 
immigrant workers are not exploited and can't be used to undermine the 
working conditions of all workers. While we have not always agreed on 
every aspect of what is needed in immigration reform legislation, on 
the question of labor protections the labor movement speaks with one 
voice.
    One of the most important labor protections is that workers 
lawfully entering this country to live and work must be provided the 
opportunity to remain in the country. Workers who know they will only 
be permitted to remain in the country for a short time do not have the 
same interests and concerns of the rest of the workforce. Their 
interests are short term and immediate and employers can exploit this 
status in ways that undermine the broader interests of all workers. 
When people are restricted to temporary status, they don't have the 
same stake in upholding and enforcing workplace standards as other 
workers. They don't have the same motivation to support and build the 
decent workplace conditions, but rather are confined as second-class 
participants in the workforce. They are more vulnerable to the kinds of 
exploitation that undermine our workforce today. They can fall prey to 
the unscrupulous employer who can manipulate their tenuous ties to the 
broader community. History has taught us that temporary worker programs 
create a second-class status for immigrant workers that undermines the 
conditions of all workers and are bound to fail.
    We cannot tolerate a repeat of the failed ``guest worker'' programs 
that are temporary in nature. If workers are good enough to be brought 
to our country to do our least desirable work, they should be given the 
option to put down roots and become full participants in our nation and 
our civic society. If they are good enough to care for our children and 
aged, cut our grass, and clean our toilets, they are good enough to be 
given the option to become permanent residents and eventually citizens.
    Immigrant workers must also have the same rights under employment 
laws as any other worker.
    When an immigrant worker does not have the same rights under labor 
law as all workers it creates an opportunity for exploitation by the 
unscrupulous employer at the expense workers and employers who play by 
the rules. Responsible employers can be undercut and placed at a 
competitive disadvantage when unscrupulous competitors drive down labor 
costs by exploiting vulnerable immigrant workers who lack adequate 
labor protections. Immigration law must not provide the unscrupulous 
employer this opportunity.
    Another critical element of protecting the rights of workers is 
assuring the number of workers permitted to enter the country is not 
greater than what is necessary to meet well defined labor market needs. 
The goal is to set a number at a level that first and foremost does not 
create a downward pressure on wages or working conditions. The number 
should not be arbitrary or inflexible, but should be based on a 
reliable assessment that new workers will not undermine wage or working 
conditions. New workers should be admitted to this country if and only 
if it is determined they will not undermines the wages and working 
conditions of all the workers in this country, both immigrant and 
native born.
    Finally, there must be adequate enforcement of labor protections. 
One of the historic problems of our immigration laws has been the 
failure to enforce the labor protections and standards. There must be 
effective enforcement mechanisms in place and adequate penalties to 
deter violations of the law. Employment law protections must be more 
than hollow promises.
    Other Necessary Requirements for Comprehensive Reform--SEIU and 
UNITE/HERE were instrumental in reversing the labor movement's position 
supporting employer sanctions. We did this because the experiment of 
employer sanctions imposed by the Immigration Reform and Control Act 
(IRCA) in 1986 to close the job market to illegal aliens backfired and 
only harmed workers. UNITE/HERE and SEIU have had first hand experience 
when organizing workers of employers calling Immigration and Custom 
Enforcement to break union strikes and organizing campaigns. We have 
worked diligently to craft an alternative to supplement employer 
sanctions in the negotiations on comprehensive immigration reform. 
Comprehensive reform must include:
    Vigorous Labor and Civil Rights law enforcement--Employer sanctions 
must be supplemented with vigorous labor law enforcement. All workers--
U.S. born and immigrant--must have the ability to assert their rights 
under local, state and federal labor and civil rights laws. They must 
be able to freely join unions and have private right of action to 
ensure their rights are preserved and protected. Immigration reform 
legislation must encourage vigorous labor and civil rights enforcement 
provisions by both governmental and non-governmental agencies, with 
these agencies given the necessary resources to ensure that employers 
who seek competitive advantages by exploiting workers will face 
significant fines and be barred from future immigrant worker programs.
    Our childcare providers, food servers and dishwashers, home health 
care aides, hotel workers, janitors and thousands of other service 
sector workers toil hard each and every day to feed and make a better 
life for their families. SEIU and UNITE/HERE members are working on 
payrolls and paying taxes through employer withholding. Reform must 
help ensure that all workers will be paid legally, under local, state 
and federal law, with proper withholding for employment taxes, social 
security, eligibility for unemployment and worker compensation 
programs. Employers must be required to meet their tax and employment 
payroll obligations, and not allowed to misclassify workers as 
independent contractors to avoid payroll obligations, Social Security, 
unemployment compensation, and Medicare taxes. When employers are 
allowed to pay workers in cash, under-the-table, or as 
``contractors''--everyone loses--businesses, communities, workers and 
taxpayers.
    Keeping families together--SEIU and UNITE/HERE strongly support all 
efforts to eliminate the family backlog and increase the number of 
visas available to reunite families. If our economy demands new 
workers, those workers should be able to bring their families with 
them, and family members should be work authorized. If low-wage workers 
are to support themselves, they must be allowed to work. When workers 
are temporary and not allowed to bring family members with them they 
can become a drain on their communities. By keeping families, together 
workers are full participants in their communities and workplaces.
    Electronic Employment Verification System--We recognize it is 
likely that Congress will include some form of an EEVS in immigration 
reform. We believe it is important that any EEVS system have sufficient 
safeguards to protect against worker abuse. This would include fixing 
deficiencies in the Electronic Verification pilot program before it is 
expanded to cover all workers. The system should only apply to new 
hires and there should be stringent protections to guard against using 
the system for discriminatory purposes. There must also be effective 
guarantees of due process rights to protect against erroneous 
determinations, adequate privacy and identity theft protections and 
workable and fair documentation requirements.
    Due Process Protections--It is critical that enforcement measures 
do not eviscerate due process protections and civil liberties. 
Likewise, SEIU and UNITE/HERE will not support any legislation that 
empowers and encourages state and local law enforcement officials to 
enforce civil violations of federal immigration laws. Such proposals 
would irreparably harm the critical relationships law enforcement 
officials have built in order to fight crime and interact with 
immigrant neighborhoods and communities
                              conclusion:
    SEIU and UNITE/HERE are committed to passing comprehensive 
immigration reform, and continues to work in partnership with immigrant 
advocates, business, religious and labor leaders who recognize the need 
for a ``break the mold'' reform package. We have rededicated our 
efforts and the resources of SEIU and UNITE/HERE to make reform a 
reality.

    Ms. Lofren. Mr. Wilson.

 TESTIMONY OF MICHAEL J. WILSON, INTERNATIONAL VICE PRESIDENT 
  AND DIRECTOR, LEGISLATIVE AND POLITICAL ACTION DEPARTMENT, 
 UNITED FOOD AND COMMERCIAL WORKERS INTERNATIONAL UNION (UFCW)

    Mr. Wilson. Thank you, Madam Chair, and distinguished 
Members of the subcommittee.
    I am Michael J. Wilson, and I am with the United Food and 
Commercial Workers Union. UFCW is the largest private-sector 
union in North America and is one of the largest unions of 
immigrant workers of the United States, with more than 200,000 
new immigrants as members. We are the primary worker 
representative in industries that are major employers of 
immigrant workers--meatpacking, food processing and poultry--
and we have a 100-year history of fighting on behalf of packing 
and processing workers.
    Without objection, I would like to enter my testimony and 
highlight an enhanced written statement.
    The workers we represent know----
    Ms. Lofgren. Without objection.
    Mr. Wilson [continuing]. The need for immigration reform. 
Some of them are undocumented, but many more want to bring 
their families here to join them in the ``land of the free and 
the home of the brave.''
    A good first step would be appropriate border enhancements 
to prevent illegal immigration, combined with a fair path to 
earned legalization for those who are here, employed, are part 
of the community, and would otherwise obey the law and pay a 
reasonable fine. Unfortunately, if combined with a massive 
Bracero-like guest worker program with little or no hope for an 
adjustment of status, it would be a bad first step or, as the 
Sunday New York Times described the Senate compromise, 
``awful.'' the Times' editorial called it--and I quote--``the 
creation of a system of modern peonage within our borders.''
    The Southern Poverty Law Center recently issued a report 
entitled, ``Close to Slavery: Guest Worker Programs in the 
United States.'' It documents the specific situations in the 
existing H-2 programs where workers are underpaid, where there 
are workplace injuries without recourse, where there are even 
cases of workers owing money to their employers after having 
served as guest workers. Here is a specific example:
    Sam Kane Beef, one of the country's largest independently 
owned beef slaughter plants, located about 5 miles northwest of 
Corpus Christi, employs about 600 people; at one time, 121 were 
Mexican guest workers. They were told that the pay would be 
good. They were led to believe that the working conditions 
would not be overly difficult. They were also assured that they 
would have, quote, ``the same rights as American workers.''
    Yet, when a UFCW representative spoke with these workers 
after they had been on the job for less than 3 weeks, they 
related that they had been misled. Injuries were a major 
concern. They claimed that there was no medical personnel on 
the plant premises. The workers had no health insurance. If a 
worker became injured, he had to go to the management in person 
to request a day off without pay. The workers were forced to 
live in substandard company housing. They were docked hours and 
denied benefits even after working 11 to 12 hours a day.
    These workers were paid $6.65 an hour, approximately half 
the industry wage for the same work. When the President says 
that these are the jobs that Americans will not do, this is 
exactly what we mean when we say that these are jobs that 
Americans will not do for those wages, nor should anyone.
    It is peonage; it is close to slavery. These are strong 
words but are the real world of lives of guest workers in 
America. The fact is that guest worker programs have created an 
underclass of workers who are afforded neither full rights on 
the job, full participation in the community, nor full 
protection at the workplace. This creates a culture in which 
people believe that a person's race or national origin 
relegates him to a life of low-paying/no future jobs. It also 
discourages domestic workers from those lines of work; thus 
segregating the workforce.
    Finally, when guest workers choose to exert workplace 
rights--the right to a safe workplace or the right to form a 
union--they risk losing their jobs or being deported. They face 
the same challenges that any worker who speaks up confronts, 
with the notable difference that they are temporary guest 
workers. This amounts to compulsory consent to exploitation, 
and it lowers working standards for all working people.
    The sad fact is that our Nation is currently incapable of 
enforcing our Nation's most basic labor laws and workplace 
protections. Our union regularly witnesses employers who fire 
and discipline workers, whether they are immigrant-, native-
born, or guest workers because they were injured on the job or 
they dared support union representation. Every time one of 
these firings takes place--and they take place frequently--the 
employer violates Federal law with little or no consequence for 
doing so. To suggest that a new guest worker program can be 
constructed with adequate workplace protections is disingenuous 
and flies in the face of history and current practices.
    Just as it is entirely appropriate for Congress to insist 
that enhanced border protection be in place prior to finalizing 
the legalization component of immigration reform, the Congress 
should insist that prior to new and expanded guest worker 
programs, there must be reform of the current programs. 
Comprehensive immigration reform should be based on our 
Nation's values of equal opportunity, responsibility, and 
justice. A new guest worker program, without significant reform 
of existing programs, undermines any reform effort before we 
even get started.
    That concludes my statement, and I would be glad to answer 
any questions.
    Ms. Lofgren. Thank you very much, Mr. Wilson.
    [The prepared statement of Mr. Wilson follows:]
                Prepared Statement of Michael J. Wilson
    Good morning. My name is Michael J. Wilson and I am representing 
the United Food and Commercial Workers International Union (UFCW). UFCW 
is the largest private sector union in North America--and it is one of 
the largest unions of new immigrant workers in the United States with 
more than 200,000 new immigrants as members. I am an International Vice 
President of the union and Director of the Legislative and Political 
Action Department.
    We are the primary worker representative in industries that are 
major employers of immigrant workers--meatpacking, food processing, and 
poultry--and have a hundred-year history of fighting for safe working 
conditions and good wages on behalf of packing and processing workers.
    Immigrants and their families come to this country prepared to 
work, pay taxes, and to abide by our laws and rules. They contribute 
more than $300 billion to our economy annually.(American Immigration 
Law Foundation, Spring 2002; UCLA, 2001.\1\ In fact, each new immigrant 
contributes roughly $1,200.\2\ They play a vital role in our economy 
and are tighly woven into our nation's social fabric.
---------------------------------------------------------------------------
    \1\ ``Comprehensive Migration Policy Reform in North America: The 
Key to Sustainable and Equitable Economic Integration,'' (University of 
California, Los Angeles), August 29, 2001.
    \2\ American Immigration Law Foundation, Spring 2002.
---------------------------------------------------------------------------
    Roughly 25 million immigrants, from nearly every country in the 
world, are living and working in the U.S., yet our country effectively 
has no immigration policy. In fact, our current approach is geared more 
to 19th and early 20th century immigration patterns than to the 
realities of the 21st century, fostering rampant abuse and exploitation 
of both immigrants and U.S. citizens.
    Unscrupulous companies take advantage of the lack of a consistent 
system to recruit and lure immigrant workers across borders with little 
or no regard for federal law or workplace regulations. The employment 
verification system is inaccurate, inefficient, and easily manipulated 
by employers eager to take advantage of cheap foreign labor.
    The mass and random enforcement activities that occur as a result--
such as those which took place in the Swift & Company meat processing 
plants in December--lead to the disruption of families, the economy, 
and our communities. During the raids, ICE agents violated the agency's 
own policies and procedures. The raids were designed and executed as 
political theatre--which is all they could be, given that the U.S. has 
no systematic or effective immigration system. In the process, more 
than 10,000 workers, both immigrant and non-immigrant, were 
criminalized simply for showing up to do their job, and subjected to 
gross violations of their human and civil rights. Worksite raids, 
family disruption, and the criminalization of work--do not constitute 
an effective immigration system.
    In some economic sectors, American businesses need immigrant 
workers. But despite the various provisions for the free flow of 
capital and goods that are built into U.S. International Trade Policy, 
insufficient consideration has been given to the transnational flow of 
people that has become part and parcel of the 21st century global 
economy.
    For example, 13 years of NAFTA have resulted in the loss of 
millions of domestic jobs for American workers. At the same time, in 
Mexico, real wages have declined significantly, millions of farmers 
have been dislocated, and millions more consigned to poverty, fueling 
the labor flight into the U.S.\3\
---------------------------------------------------------------------------
    \3\ Scott, Robert E and David Ratner. (2005, July 25). ``NAFTA's 
cautionary tale: Recent history suggests CAFTA could lead to further 
U.S. job displacement.'' The Economic Policy Institute. <http://
www.epi.org/content.cfm/ib214>
---------------------------------------------------------------------------
    The result of our outdated immigration system--exacerbated by trade 
policies that are effectively devoid of enforceable labor protections--
is an unauthorized U.S. population of an estimated 11.5 to 12 million 
as of March 2006.\4\ As a result, immigrants and native-born American 
workers in underpaid economic sectors are experiencing workplace abuse 
and the erosion of wages and working conditions. Our country's archaic 
immigration policy--incapable of dealing with 21st century immigration 
patterns and economic realities--is undermining the very ideals and 
values our country was built on, and serving neither business nor 
workers.
---------------------------------------------------------------------------
    \4\ Passel, Jeffrey S. (2006, March 7). ``Size and Characteristics 
of the Unauthorized Migrant Population in the U.S.'' The Pew Hispanic 
Center. < http://pewhispanic.org/reports/report.php?ReportID=61>
---------------------------------------------------------------------------
    Some have suggested that a new guestworker visa program would be 
the legislative solution to satisfy the international supply and 
national demand for labor without letting workers ``sneak in.'' Some 
have described these programs as ``break the mold'' or ``different'' 
than prior efforts. Such proposals fail to acknowledge the disastrous 
effects of past and present guestworker programs and the obstacles that 
would impede the creation of new and improved temporary worker plans.
    The post-World War II Bracero program was synonymous with worker 
abuse. Modern versions of the same--such as the H2-B--have had similar 
negative effects. In 1997 the U.S. Government Accountability Office 
reported that modern H-2A workers ``are unlikely to complain about 
worker protection violations, such as the three-quarter guarantee, 
fearing they will lose their jobs or will not be accepted by the 
employer or association for future employment.'' \5\ The Southern 
Poverty Law Center has said that our existing guestworker programs 
``can be viewed as a modern-day system of indentured servitude.'' Even 
Ways and Means Chairman Rangel recently described our country's 
experience with guestworker programs as ``. . . the closest thing I've 
ever seen to slavery.''
---------------------------------------------------------------------------
    \5\ ``Changes Could Improve Services to Employers and Better 
Protect Workers.'' GAO/HEHS 98-20, pp 60-61.
---------------------------------------------------------------------------
    Guestworkers, especially in low-wage economic sectors, face 
exploitation at nearly every step from securing visas to working in 
sweatshop conditions. We've seen the effects of today's guestworker 
programs in our own industries--meatpacking and food processing--
sectors that new guestworker legislation will likely effect.
    For example, Sam Kane is one of the country's largest independently 
owned beef slaughter and processing plants. It is located about five 
miles northwest of downtown Corpus Christi and employs approximately 
600 people--121 of whom at one time were Mexican guestworkers. They 
were told that the pay would be ``good'' and were led to believe that 
the working conditions would not be overly difficult. They were also 
assured that they would have the ``same rights as American workers.'' 
Yet when a UFCW representative spoke with some of these ``guests'' 
after they'd been on the job for less than three weeks, they related 
that they had been misled and their promised rights severely curtailed.
    Injuries became of major concern for the workers. They claimed that 
there was no nurse or clinic on the plant premises, and they had no 
health insurance. If a worker became sick, he or she had to go to the 
plant in person to request a day off without pay. Forced to live in 
substandard company housing, the workers were docked hours and denied 
benefits even after working 11-12 hours a day.
    This kind of gross inhumanity and abuse in sectors where 
guestworkers are employed is thoroughly documented in a recent report 
by the Southern Poverty Law Center landmark report, ``Close to Slavery; 
Guestworker Programs in the United States.
    These workers were paid $6.65 an hour approximately half of the 
industry wage for the same work. When the President says that these are 
jobs that Americans won't do, this is exactly what we mean when we say 
that these are jobs that Americans won't do at these wages. In 2007, no 
one should do this work at these wages, and the government should not 
help employers keep wages down.
    The facts are incontrovertible: guestworker programs create an 
underclass of workers and engender racial and other discriminatory 
attitudes toward individuals who are afforded neither full rights on 
the job, full participation at the workplace, or full connection to the 
community. This creates a culture in which people believe that a 
person's race, color, or national origin relegates them to a life of 
low-paying, no-future jobs. It also discourages domestic workers from 
those lines of work, segregating the workforce. Finally, when 
guestworkers choose to exert workplace rights--the right to a safe and 
healthy workplace or the right to form a union--they risk losing their 
jobs or being deported. They face the same employment dangers that any 
worker who speaks up confronts--you or I or any of your constituents, 
with a notable difference--they are temporary guestworkers. In effect, 
this amounts to compulsory consent to abuse and exploitation, and 
lowers working standards for all working people.
    In 2005 the Brennan Center for Justice reported that there has been 
a ``significant reduction in the government's capacity to ensure that 
employers are complying with the most basic workplace laws.'' \6\
---------------------------------------------------------------------------
    \6\ ``Trends in Wage and Hour Enforcement by the U.S. Department of 
Labor, 1975-2004.'' Brennan Center for Justice, Economic Policy Brief, 
No. 3, September 2005.
---------------------------------------------------------------------------
    The sad fact is that our nation is currently incapable of enforcing 
our country's most basic labor laws and workplace protections. The 
United Food and Commercial Workers International Union has regularly 
witnessed employers who fire and discipline workers--whether immigrant, 
native-born, or a ``guest''--because they were injured on the job; or 
they spoke out in support of union representation; or they sought the 
correction of a workplace safety and health hazard. Every time one of 
these of firings take place--and they take place frequently--the 
employer violates federal law with little or no consequence for doing 
so.
    It is more than naive to suggest that a new guestworker program can 
be constructed with adequate workplace protections--it is disingenuous. 
The outcome is sadly foreseeable: no matter how many abstract 
protections get written into a guestworker program, the approach will 
inherently provide employers with the opportunity to abuse and exploit 
workers, especially in low-wage jobs. A notable exception is AgJobs, 
which was negotiated between the employers and the union representing 
the workers, and will be enshrined in law.
    American democracy works because it is inclusive. But all 
guestworker programs permanently exclude individuals who contribute to 
our economic well-being from participating in our democratic process. 
America's immigration system requires comprehensive reform that serves 
everyone who lives and works in America.
    The following are the UFCW immigration reform principles which we 
believe are necessary to protect workers:

        <bullet>  A Path to Citizenship: Nearly 12 million immigrants 
        provide their labor and talent to American employers. They make 
        significant contributions to their communities, but are 
        afforded neither labor rights nor due process protections. We 
        must create a real pathway to citizenship for immigrant workers 
        who have established themselves in the community, who are 
        employed, and who have otherwise not broken the law.

        <bullet>  End Worksite Immigration Enforcement: Worksite 
        programs like ``Basic Pilot'' and the ICE Mutual Agreement 
        between Government and Employers (IMAGE) are riddled with 
        problems, fail to adequately protect workers from 
        discrimination, exploitation, and harassment, and fail as a 
        substitute for a systematic approach to a fair and orderly 
        immigration process.

        <bullet>  Meaningful Employer Punishments for Immigration and 
        Labor Law Violations: Too often, when companies cannot export 
        jobs in search of cheap wages and weak labor laws, they import 
        workers to create a domestic pool of exploitable labor. The law 
        must criminalize employers who recruit undocumented workers 
        from abroad or otherwise circumvent immigration policies, and 
        provide meaningful, enforceable penalties for companies that 
        violate health, safety, and labor laws.

        <bullet>  No New Guestworker or Temporary Worker Programs: 
        Guestworker programs allow employers to turn permanent, full-
        time, family-supporting jobs into temporary, go-nowhere jobs 
        that exploit immigrants and native-born workers alike. When 
        guestworkers choose to exert workplace rights, they risk losing 
        their jobs or being deported. Guestworker programs create an 
        underclass of workers and engender racial and other 
        discriminatory attitudes toward individuals who are afforded 
        neither full rights on the job nor participation in our 
        society. In addition, existing guestworker programs should be 
        reformed so that they include real worker protections--
        including the right to self-petition for legalization and the 
        freedom to change jobs--and penalties for employers who break 
        the law. Reform of existing programs should be a requisite 
        prior to the creation of broad new programs. Anything less will 
        inevitably lead to the kinds of problems and scandals which 
        will shame us all.

        <bullet>  Revise the Permanent Employment-Based Visa System: 
        Instead of short-term ``guestworker'' visas, labor shortages 
        should be filled with workers with full rights, a path to 
        permanent residence, and, if they choose, citizenship. The 
        number of visas available should respond to actual, 
        demonstrated labor shortages. U.S. employers should be required 
        to hire U.S. workers first, and wage rate requirements should 
        be high enough to make jobs attractive to U.S. workers.

        <bullet>  Wage and Working Condition Protection for All 
        Workers: All workers, including future immigrant workers, 
        should have the same workplace protections as U.S. citizens, 
        including fair wages, a safe workplace, and the right to join a 
        union. Immigrant workers who report employer violations should 
        be ensured whistleblower protections with special protections 
        that include extending their immigration status and work 
        authorization during the complaint process.

    The interests and lives of America's working families cannot be 
compromised. A single-minded immigration policy that disregards legal, 
labor, and workplace protections and only serves to provide employers 
with workers will inevitably result in economic and social calamity. 
Workers need to be at the heart of an effective and comprehensive 
reform of our immigration laws. Meaningful immigration reform should 
begin with the enforcement of basic workplace protections already on 
the books. Anything less, especially the enactment of a massive new 
guestworker program will exacerbate the systemic problems of our 
current system hurting all workers, their families, and their 
communities and robbing America of its fundamental values of inclusion 
and justice.

    Ms. Lofgren. Mr. Goldstein.

 TESTIMONY OF BRUCE GOLDSTEIN, EXECUTIVE DIRECTOR, FARMWORKER 
  JUSTICE, ON BEHALF OF MR. MARCOS CAMACHO, GENERAL COUNSEL, 
                 UNITED FARM WORKERS OF AMERICA

    Mr. Goldstein. Thank you to the Chair and to the Members of 
this Committee for the opportunity to testify on behalf of the 
United Farm Workers regarding the labor movement and 
immigration policy.
    Agricultural workers have confronted difficulties in 
immigration policy since the founding of this Nation. Our 
government policies and enforcement efforts have often 
contributed to an imbalance in power that has subjected farm 
workers to poor wages and working conditions. The Bracero 
program became known for its abusive treatment of Mexican 
workers, despite the existence of protections for wages and 
benefits, and was finally ended in 1964. When the farm workers 
became free to demand better treatment, Cesar Chavez and the 
United Farm Workers provided a vehicle to dramatically improve 
the status and treatment of farm workers in this country.
    Now we have the H-2A guest worker program, which was 
created at the same time as the Bracero program, and it is 
quite similar to it. Generally, our guest worker programs have 
tied workers to a particular employer. If the job ends, the 
worker may not look for another job and must leave the United 
States immediately. The guest worker who wishes for a visa the 
next year must hope that the employer will request one because 
the employers control access to visas. Such workers are often 
fearful of deportation or of not being hired in the following 
year, and are therefore reluctant to demand improvements. They 
work very hard for low wages. U.S. workers often recognize that 
they are not wanted by employers who use the guest worker 
system. Currently, there are about 50,000 H-2A jobs approved 
annually out of an agricultural workforce of about 2.5 million.
    There are many abuses under the H-2A program, ranging from 
very minor to very serious trafficking in human beings. 
Unfortunately, our government has rarely enforced the 
protections in the H-2A program. Today, on page 3 of The New 
York Times, there is a report about the visas and the H-2A 
program, including the murder of an organizer of the Farm Labor 
Organizing Committee, AFL-CIO, while organizing in Mexico.
    In recent years, the United Farm Workers Union and the Farm 
Labor Organizing Committee have been asked by guest workers 
from several nations to help them improve conditions at their 
jobs in Washington State, Hawaii, and North Carolina. We 
believe that unionization is the best hope that guest workers 
have for better treatment and the best hope that the government 
has of removing the H-2A program's reputation for abuse.
    Today, we have reached a situation in agriculture that 
demands urgent action. Between 53 and 70 percent of farm 
workers are undocumented. In some crops, it is 80 percent. Many 
employers now hire farm labor contractors in the hope that they 
can shield themselves from liability for hiring undocumented 
workers in violation of the immigration law and from liability 
for labor law violations. In many cases, due to inadequate 
enforcement of labor laws, employers take advantage of 
undocumented workers by subjecting them to illegal wages and 
working conditions.
    When the majority of workers in an economic sector are 
living in the shadows of society, something must be done. The 
current situation is not good for farm workers who want to be 
able to work legally and earn a decent living to support their 
families. It is not good for employers who want to hire people 
without worrying that they will be raided by the Immigration 
Service at the peak of their harvest of their perishable fruits 
and vegetables. It is not good for the government either.
    The United Farm Workers Union recognized several years ago 
that the status quo needed to be remedied. We prevented 
legislation from being passed that would have transformed 
agriculture into a harsh guest worker program with no path to 
citizenship, but we were unable to pass the kind of legislation 
that we preferred. With the help of Representative Berman and 
other Members of Congress, we entered into arduous negotiations 
with key leaders of agricultural employers in the United States 
and other Members of the Congress. The result was AgJOBS. The 
``AgJOBS,'' the Agricultural Job Opportunities, Benefits and 
Security Act, would provide agricultural employers and the 
Nation with a legal, stable, productive workforce while 
ensuring that basic labor protections would apply to farm 
workers. AgJOBS has two parts.
    First, AgJOBS would create an earned adjustment program, 
allowing many undocumented farm workers to obtain temporary 
resident status based on past work experience with the 
possibility of becoming permanent residents through continued 
agricultural work. Second, it would revise the existing H-2A 
program. The Earned Legalization program certainly should not 
be called ``amnesty.'' This is a tough program. Farm work is 
dangerous, difficult, seasonal, and low-paid. This truly will 
be an earned legalization. Applicants will have to work 3 to 5 
additional more years in agriculture to earn their green cards.
    To conclude, we recommend the following: We encourage you 
to pass AgJOBS. Congress and the Administration should also be 
vigilant about abuses under guest worker programs. Strong 
enforcement of labor protections is needed. Congress also needs 
to adopt protections against abuses associated with foreign 
labor contracting. The U.S. Government should be looking to the 
recruitment systems abroad that bring workers into the United 
States.
    Thank you very much for the opportunity to testify today.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Camacho follows:]
                  Prepared Statement of Marcos Camacho
    Thank you to the Chair and the Members of this Committee for the 
opportunity to testify on behalf of the United Farm Workers regarding 
the labor movement and immigration policy. I am Marcos Camacho, an 
attorney in Bakersfield, California, and the General Counsel of the 
United Farm Workers, the labor union founded by Cesar Chavez.
    Agricultural workers have confronted difficulties in immigration 
policy since the founding of this nation. Our government policies and 
enforcement efforts have often contributed to an imbalance in power 
that has subjected farmworkers to poor wages and working conditions.
    The Bracero guestworker program became known for its abusive 
treatment of Mexican workers, despite the existence of protections for 
wages and benefits, and was finally ended in 1964. When, the 
farmworkers finally became free to demand better treatment, Cesar 
Chavez and the United Farm Workers provided a vehicle to dramatically 
improve the status and treatment of farmworkers in this country.
    More recently, the H-2A guestworker program often has provided 
agricultural employers with workers whose restricted, nonimmigrant 
status ensures that they will not challenge unfair or illegal conduct. 
Generally, our guestworker programs have tied workers to a particular 
employer; if the job ends, the worker may not look for another job and 
must leave the United States immediately. The guestworker who wishes 
for a visa in the next year must hope that the employer will request 
one, because the employers control access to visas. Such workers are 
often fearful of deportation or not being hired in the following year, 
and are therefore reluctant to demand improvements. They work very hard 
for low wages. U.S. workers often recognize that they are not wanted by 
the employers who use the guestworker system. Currently, there are 
about 50,000 H-2A jobs approved annually, out of an agricultural work 
force of 2.5 million.
    There are many abuses under the H-2A program ranging from minor to 
very serious trafficking in human beings. Unfortunately, our government 
has rarely enforced the protections in the H-2A program. In recent 
years, the United Farm Workers and the Farm Labor Organizing Committee 
have been asked by guestworkers from several nationsto help them 
improve conditions at their jobs in Washington State, Hawaii and North 
Carolina. We believe that unionization is the best hope that 
guestworkers have for better treatment and the best hope the government 
has of removing the H-2A program's reputation for abuse.
    Today, we have reached a situation in agriculture that demands 
urgent action. There are about 2.5 million farmworkers in this country, 
not including their family members. More than 80% of them are foreign-
born, mostly but not all from Mexico. Virtually all of the newest 
entrants to the farm labor force lack authorized immigration status. 
The helpful reports from the National Agricultural Workers Survey by 
the U.S. Department of Labor state that about 53% of farmworkers are 
undocumented. But most observers believe the figure is 60% or 70%, and 
much higher in specific locations. Many employers now hire farm labor 
contractors in the hope that they can shield themselves from liability 
for hiring undocumented workers in violation of our immigration law and 
from liability for labor law violations. The labor contractors compete 
against one another by offering to do a job for less money, and the 
cut-throat competition means that the workers must take lower wages. 
When one labor contractor is prosecuted for violating labor laws, he is 
easily replaced. Our current immigration system is causing employers to 
attempt to evade responsibility for their employees, while undocumented 
workers are too fearful of being deported to demand changes. In many 
cases, due to inadequate enforcement of labor laws, employers take 
advantage of undocumented workers by subjecting them to illegal wages 
and working conditions.
    When the majority of workers in an economic sector are living in 
the shadows of society something must be done. The current situation is 
not good for farmworkers who want to be able to work legally and earn a 
decent living to support their families. It is not good for employers 
who want to hire people without worrying that they will be raided by 
the immigration service at the peak of the harvest of their perishable 
fruits and vegetables. It is not good for the government, which needs 
to know who is working in our economy and living among us. But it is no 
answer to say we will deport them and start again. The growers need 
these experienced workers to cultivate and harvest their crops. In 
fact, many growers contend that there are labor shortages in some areas 
because undocumented workers are too fearful of immigration raids to 
come to the open fields.
    The United Farm Workers recognized several years ago that the 
status quo needed to be remedied. We also recognized that some of our 
long-held beliefs would need to be modified if we were to achieve any 
sort of reform. During the late 1990's, we strenuously and successfully 
opposed efforts in the House and Senate by agricultural employers to 
weaken H-2A protections and procedures and transform most farmworkers 
into vulnerable guestworkers with no path to citizenship. Our 
successful opposition led to a stalemate since we did not have the 
legislative support needed to enact our ideas about immigration and 
labor reform.
    With the help of our good friend, Rep. Howard Berman, and other 
members of Congress, we entered into arduous negotiations with key 
leaders of the agricultural employers in the United States and other 
members of Congress, particularly Senator Larry Craig, Senator Edward 
Kennedy, and Rep. Chris Cannon. In 2000, we reached agreement on the 
Agricultural Job Opportunities, Benefits and Security Act, or 
``AgJOBS.'' AgJOBS has undergone several revisions over the years to 
build greater support for passage. Sen. Dianne Feinstein is now a 
strong supporter of AgJOBS. We remain strong partners with agricultural 
employers to win passage of this important legislation despite many 
other differences between us. In 2006, the Senate included AgJOBS in 
the comprehensive immigration reform it passed. We are now seeking to 
pass AgJOBS as part of comprehensive immigration reform in 2007. We 
have been working with the White House and several Senators to bring 
AgJOBS to a conclusion.
    AgJOBS would provide agricultural employers and the nation with a 
legal, stable, productive workforce while ensuring that basic labor 
protections would apply to farmworkers. AgJOBS has two parts. First 
AgJOBS would create an ``earned adjustment'' program, allowing many 
undocumented farmworkers to obtain temporary resident status based on 
past work experience with the possibility of becoming permanent 
residents through continued agricultural work. Second, it would revise 
the existing H-2A agricultural guestworker program.
    The earned legalization program certainly should not be called 
``amnesty.'' It is a difficult two-step process. The applicants for 
earned legalization will have to show that they have worked at least 
150 days in U.S. agriculture during the past two years, and then must 
work at least 150 days per year in each of three years or at least 100 
days per year in each of five years. Farmworkers will also have to show 
that they have not been convicted of a felony or serious misdemeanors. 
Spouses and minor children of the farmworkers will be eligible for a 
temporary status, too.
    If they fulfill their obligations, they will be granted a green 
card for permanent resident status. They will have to pay substantial 
fees and fines at both steps. (Under the compromise worked out with the 
White House, farmworkers also will have to learn English, demonstrate 
that they have paid taxes during their prospective work period, return 
to their homeland to file the application for a green card with a U.S. 
consulate in their home country, and wait for the green card for 3 to 5 
more years until backlogs in immigration applications have been 
cleared.). We expect that roughly 800,000 farmworkers will be eligible 
for this program, although such predictions are mere guesses. Through 
this multiyear process, the United States will have a stable, legal 
farm labor force that is highly productive.
    This is a tough program. Farm work is dangerous, difficult, 
seasonal and low-paid. This truly will be an earned legalization.
    AgJOBS also would revise the H-2A guestworker program. We feel that 
we made painful concessions to achieve this compromise. The program's 
application process will be streamlined to become a ``labor 
attestation'' program similar to the H-1B program, rather than the 
current ``labor certification'' program. This change reduces paperwork 
for employers and limits the government's oversight of the employer's 
application. AgJOBS would retain both the ``prevailing wage'' and 
``adverse effect wage rates,'' but would effectively lower the H-2A 
wage rates by about $1.00 per year (to the 2003 adverse effect wage 
rates, which are issued by state), and freeze them for three years. The 
Government Accountability Office and a special commission would make 
recommendations to Congress about the wage rates within 3 years. If 
Congress has not acted within 3 years, then the wage rates will be 
adjusted by the previous years' inflation rate. In addition, for the 
first time, farmworkers would have a right to file a federal lawsuit to 
enforce their H-2A job terms. AgJOBS also would allow some flexibility 
in the minimum wages and benefits when the workers at an H-2A employer 
are represented by a bona fide labor union under a collective 
bargaining agreement.
    We believe that AgJOBS is a reasonable compromise under the 
circumstances. To conclude, we recommend the following: (1) We 
encourage you to pass AgJOBS. (2) Congress and the Administration 
should be vigilant about abuses under guestworker programs. Strong 
enforcement of the labor protections for guestworkers will prevent 
guestworkers from being exploited, prevent the wages and working 
conditions of United States workers from being undermined, and will 
take away the incentive that employers have to hire guestworkers rather 
than U.S. workers, including those who would earn legal immigration 
status under the AgJOBS earned legalization program. (3) Congress needs 
to adopt protections against abuses associated with foreign labor 
contracting. The U.S. Government is refusing to look at the abuses that 
occur during the recruitment of guestworkers in the foreign country. 
Yet, those abuses abroad, including payment of high recruitment fees, 
result in mistreatment of guestworkers on the job in the U.S., because 
the guestworkers must work to the limits of human endurance and avoid 
deportation at all costs to pay back those fees. The labor contractors' 
interest in such recruitment fees may have led to the murder earlier 
this year in Monterrey, Mexico, of Santiago Rafael Cruz, who was 
helping Mexican citizens employed as guestworker for North Carolina 
growers under a collective bargaining agreement with the Farm Labor 
Organizing Committee, AFL-CIO. (4) We also ask you to recognize that 
the best protection workers--both U.S. and foreign--have at an employer 
that participates in a guestworker program is a labor union. Government 
policy should promote collective bargaining to reduce abuses under 
guestworker programs and give workers a meaningful voice at work.
    Thank you for this opportunity to testify before the Committee on 
these important and timely issues.

    Ms. Lofgren. That is just notifying us that we are going 
into session in 15 minutes, not that we have votes now. Thank 
goodness.
    Dr. Briggs.

TESTIMONY OF VERNON BRIGGS, Ph.D., PROFESSOR OF INDUSTRIAL AND 
              LABOR RELATIONS, CORNELL UNIVERSITY

    Mr. Briggs. Thank you very much.
    With the revival of mass immigration since 1965 and with 
Congress seemingly poised to move the Nation into an era of 
massive immigration, the impact of immigration policy on the 
labor market has once again become of critical importance to 
the Nation's labor movement. Immigration affects the size, the 
skill distribution, the composition, and the geographic 
distribution of the Nation's labor force. Therefore it impacts 
local wages and incomes and employment in local, regional, and 
national labor markets.
    The labor movement must have a voice in immigration policy, 
a big voice. It is a dilemma. It can either favor restrictions 
and tight enforcement of immigration laws, and in doing so it 
risks alienating the growing immigrant population and component 
of the labor force. If it supports expansionary policies, and 
lax enforcement, it risks harming the American labor force that 
is its actual base. And when I use ``American labor force,'' I 
mean the native-born; I mean the permanent resident aliens; and 
I mean the naturalized citizens; the whole labor force, that 
is, the American labor force. It cannot be supportive of both. 
You cannot have it both ways.
    Prior to 1990, organized labor always sided with the best 
interests of the American labor force, even though it was 
founded by immigrants. Most importantly, many of the leaders 
were immigrants. From 1860 until 1990, labor supported every 
effort to regulate immigration in the Nation's history. Every 
law that was passed had the fingerprint of labor on it.
    Samuel Gompers, the first President of the American 
Federation of Labor in America, the movement's greatest labor 
leader, said in his autobiography that organized labor was the 
first group in 1892 to recognize the importance of regulating 
immigration in the best interests of American workers, and 
acted to do accordingly. Also in his autobiography he says 
immigration, in all of its most fundamental aspects, is a labor 
issue. Fundamentally, it is a labor issue because all of them, 
no matter how they are coming in, will work, and so will most 
of their relatives, and so it is a labor issue.
    Even the famous labor leader A. Philip Randolph, a labor 
leader and civil rights leader who led the march in Washington 
here in 1963, stated in the 1920's that the Nation was 
suffering from ``immigration indigestion.'' It needed 
restrictive immigration policies. He supported it. He even 
advocated zero immigration.
    All of the research on the labor market has shown that 
those positions of labor in the past years were justified. The 
eras of mass immigration did depress wages. They did spread 
poverty. They were a cause of unemployment, of overcrowding in 
cities and of all the rest of it, mass unemployment.
    Well, since 1990, there has been a shift in the organized 
labor position. It has begun to favor amnesty. Some strong 
parts of the labor movement have supported either reform or 
expansion of guest worker programs. It has accepted a ``chain 
migration'' agenda and has picked up the immigrant agenda, the 
immigrant rhetoric, and has demonized critics of those 
policies. It has taken to ignoring research findings about the 
adverse impacts of immigration on low-wage workers.
    The real imperative of immigration reform should get 
illegal immigrants out of the labor force. Then there would not 
be a dilemma for organized labor, and if government were to do 
its job and actually enforce the laws, we would not even be 
here today discussing this issue. Until then, a choice must be 
made. I feel it has been a mistake for the organized labor to 
abandon its pre-1990's role where it supported the policies 
which were in the best interests of American worker are always 
first, always first, and you have to make a choice. Always 
first, as it did before the 1990's. Why?
    Because if mass immigration continues to be unregulated, it 
will be impossible for unions to improve wages and hours and 
working conditions for working people and especially, low-
skilled workers. The labor market will continue to be flooded. 
Unions cannot defy market pressures. Workers will pay dues, but 
they will not get much out of their union participation.
    Secondly, support for an immigrant agenda will alienate 
large portions of the labor force who are adversely affected by 
labor's revised stance and who are adversely affected by the 
presence of the massive infusion of illegal immigrants, amnesty 
recipients, chain migration, guest workers, and all the rest of 
it that now organized labor, in part, seems to be supporting. 
They will not support labor. The people who will be hurt will 
be justified in that conclusion.
    Finally, it raises the question that the labor movement 
will lose the moral support of the general public. And I quote 
John Mitchell's, from the United Mine Workers, famous statement 
to this effect that labor has always benefited from the idea 
that, whether or not people belong to unions or not, they 
always knew the labor movement had in its heart the best 
interest of American workers, first and foremost. That is the 
real danger.
    So, consequently, I would conclude by simply saying that 
what is bad economics for working people cannot be good 
politics.
    Ms. Lofgren. Thank you, Dr. Briggs.
    [The prepared statement of Mr. Briggs follows:]
               Prepared Statement of Vernon M. Briggs Jr.
    Over its long history, few issues have caused the caused the 
American labor movement more agony than has the issue of immigration. 
It is ironic this is the case since most adult immigrants directly join 
the labor force as do eventually most of their immediate family 
members. But precisely because immigration affects the size, skill 
composition and geographical distribution of the nation's labor force, 
it also influences local, regional and national labor market 
conditions. Hence, organized labor can never ignore the public policies 
that determine immigration trends.
    In the process, however, organized labor is confronted with a 
dilemma. If it seeks to place restrictions on immigration as well as to 
press for serious enforcement of its terms, the labor movement risks 
alienating itself from those immigrants who do enter (legally or 
illegally) and do find jobs which may make it difficult to organize 
them. If, on the other hand, they support permissive or expansionary 
immigration admission policies and/or lax enforcement against violators 
of their terms, the labor force is inflated and the ensuing market 
conditions make it more difficult for unions to win economic gains for 
their existing membership and to organize the unorganized. The main 
reason most workers join unions in the United States is, after all, is 
because they believe unions can improve and protect their economic 
well-being (i.e., their wages, hours of work, and working conditions). 
It also is implied that if organized labor were to become an advocate 
for immigrant causes (e.g., support for guest worker programs; the non-
enforcement of employer sanctions against hiring illegal immigrant 
workers; or favoring mass amnesties that reward those who have 
illegally entered the country and are illegally employed), such 
positions would be adverse to the best economic interests of the vast 
majority of American workers who are legally eligible to work but who 
do not belong to unions. These legal American workers (i.e., the native 
born citizens, naturalized foreign born workers, permanent resident 
aliens, and those foreign born nationals given non-immigrant visas that 
permit them to work temporarily in the United States) would face the 
increased competition for jobs as well as wage suppression from such 
pro-immigrant policies. Hence, immigration has always been a ``no-win'' 
issue for the American labor movement.
    Nonetheless, a choice must be made. At every juncture and with no 
exception prior to the late 1980s, the labor movement either directly 
instigated or strongly supported every legislative initiative enacted 
by Congress to restrict immigration and to enforce its policy 
provisions. Labor leaders intuitively sensed that union membership 
levels were inversely related to prevailing trends in immigration 
levels. When the percentage of the population who were foreign born 
increased, the percentage of the labor force who belonged to unions 
tended to fall; conversely when the percentage of the population who 
were foreign born declined, the percentage of the labor force who 
belonged to unions tended to rise. History has validated those 
perceptions. To this end, the policy pursuits of the labor movement 
over these many years were congruent with the economic interests of 
American workers in general--whether or not they were union members 
(and most were not).
    But by the early 1990s, some in the leadership ranks of organized 
labor began to waffle on the issue. This was despite the fact that the 
nation was in the midst of the largest wave of mass immigration in its 
history while the percentage of the labor force who belonged to unions 
was plummeting. In February 2000 the Executive Council of the American 
Federation of Labor--Congress of Industrial Organizations (AFL-CIO) 
announced it was changing its historic position. It would now support 
expanded immigration, lenient enforcement of immigration laws and the 
legislative agenda of immigrant advocacy groups. Subsequently, AFL-CIO 
officials publicly explained that the organization was now 
``championing immigrant rights as a strategic move to make immigrants 
more enthusiastic about joining unions.''
    In mid-2005, four unions who had belonged to the AFL-CIO 
disaffiliated and formed a new federation--Change-to-Win (CTW). The 
largest of these to disaffiliate was the Service Employees 
International Union (SEIU). While there were other issues involved in 
this split-up, SEIU had been the leading voice for the efforts to 
change labor's historic role on the subject of immigration within the 
AFL-CIO. It continues to be in its new role in CTW.
    But the key point is that hitherto the labor movement had been the 
nation's most effective advocate for the economic advancement of all 
American workers eligible to legally work. With these position changes, 
the issue is open to question. Working people--especially those on the 
lowest rungs of the economic ladder--can no longer be assured that the 
most effective champion they have ever had is still there for them. The 
potential loss of public support for organized labor among the general 
populace may in the long run prove to be more costly than any short run 
tactical gains achieved by this shift in its advocacy position.
              a brief review of labor's pre-1990 position
    Although efforts of working people to band together to form 
organizations to represent their collective interests date back to the 
earliest days of the Republic, it was not until the1850s that several 
craft unions were able to establish organizations that could survive 
business cycle fluctuations, anti-labor court rulings, and employer 
opposition to their existence. By this time, immigration had already 
become a controversial subject among the populace. Immigrants were used 
as strikebreakers and as an alternative source of workers that could be 
used to forestall union organizing. Already unions were contending that 
rising immigration levels were making it difficult to secure wage 
increases and improvements in working conditions. But the federal 
government had yet to formulate any specific policies to regulate the 
flow.
    With the coming of the Civil War in 1861, labor shortages quickly 
developed in the industrialized North. As a consequence the first 
statutory immigration law was adopted in 1864 by Congress. The Contract 
Labor Act, as it became known as, allowed employers to recruit foreign 
workers, pay their transportation costs, and obligate them to work for 
them for a period of time for no wages until they could repay the 
transportation and often their subsistence costs during this period of 
virtual servitude. The program continued after the war ended. Free 
labor, quickly deduced that they could not compete with such workers 
who could not quit and who were not paid. The National Labor Union 
(NLU), the principle labor organization at the time, viewed the 
Contract Labor Act as an artificial method to stimulate immigration and 
to suppress wages for all workers. They sought repeal of the 
authorizing legislation and were successful in doing so in 1868. But 
the practice itself was not banned and it continued to flourish as a 
private sector recruiting device.
    The NLU then shifted it attention to the large-scale immigration of 
unskilled Chinese workers who were also largely recruited through the 
use of contract labor. Employers consistently paid Chinese workers less 
than white workers (which is often done today with illegal immigrant 
workers). Naturally, the belief that Chinese workers would work for 
considerably less than they would raised the ire of the white workers. 
Chinese workers were also used as strikebreakers. As the practice of 
hiring Chinese workers for low pay spread to the East from the West 
Coast, the NLU responded to the pleas of workers to end such practices. 
The NLU sought repeal of the Burlingame Treaty of 1868 with China that 
allowed Chinese immigrants to enter the country on the same terms as 
immigrants from other countries (although they could not become 
naturalized citizens).
    By 1872, however, the NLU had passed away after as it 
unsuccessfully tried to become a political party. A new national labor 
organization, the Knights of Labor, had been formed by this time. It 
picked up the baton of trying to reform the nation's quiescent 
immigration system. Concluding that the revival of mass immigration was 
serving to depress wages for working people and to provide employers 
with ample supplies of strikebreakers that hampered union organizing, 
it too sought repeal of the Burlingame treaty and for legislation to 
end the practice of contract labor. They were unable to have the Treaty 
revoked but they did succeed in getting it amended to allow the United 
States to ``suspend'' the entry of unskilled Chinese immigrants. This 
was done in 1882 with the passage of the Chinese Exclusion Act that 
suspended Chinese immigration for ten year (and the practice continued 
until the law was repealed in 1943 and China was given a small quota). 
The Knights then successfully lobbied for passage of the Alien Contract 
Act of 1885 (and strengthening amendments in 1887 and 1888). This 
legislation forbade all recruitment of foreign labor by American 
employers under contractual terms. This ban remained in effect until 
1952 when, unfortunately, it was repealed and this practice is today 
once more becoming a mounting concern for both organized labor and 
American labor in general (i.e., the H1-B visa issue, etc.).
    Despite these successes by the Knights, by the 1880s their 
organizing appeal (that emphasized long run political reforms) had lost 
its following. The American Federation of Labor (AFL) came into being 
during this decade. Its member unions tended to focus on the 
achievement of short run economic gains in ``the here and now.''
    Samuel Gompers was instrumental in the formation of the AFL. He was 
its president for all but one year between 1886 and 1924 and is 
generally recognized as being the most influential labor leader in 
American history. Gompers was himself an immigrant (as were many of the 
nation's union leaders during the movements formative years). 
Nevertheless, when the Supreme Court finally confirmed in 1892 that the 
federal government has sole responsibility for the formulation and 
enforcement of the nation's immigration laws, the opportunity for 
organized labor to press national political leaders to adopt finally an 
immigration policy that set limits, screens applicants, and that could 
be held accountable for its employment and wage consequences. In his 
autobiography, Gompers boasted that ``the labor movement was among the 
first organizations to urge such policies.'' For as he famously stated: 
``we immediately realized that immigration is, in its fundamental 
aspects, a labor problem.'' For no matter how immigrants are admitted 
legally or enter illegally, they must work to support themselves. 
Hence, the labor market consequences should be paramount when designing 
the terms of the nation's immigration policy.
    In 1896, the AFL leadership first addressed directly the issue of 
limiting immigration. Gompers at the AFL convention that year 
proclaimed ``immigration is working an great injury to the people of 
our country.'' At its convention the following year, the AFL adopted a 
formal resolution calling on the federal government to impose a 
literacy test for all would-be immigrants in their native languages. As 
the preponderance of immigrants at the time were illiterate in their 
native tongues, the implicit goal of the requirement was to to reduce 
the level of unskilled worker immigration into the country. It renewed 
this effort in 1905 and did so at every subsequent convention until 
such legislation did become the law of the land in 1917.
    When the Immigration Commission (i.e., the Dillingham Commission) 
issued its famous report in 1911 on the impact of the immigration on 
the U.S. economy and society, its findings confirmed the AFL beliefs 
that mass immigration was depressing wages, causing unemployment, 
spreading poverty and impairing the organizational abilities of unions. 
In the wake of the release of this historic report, the Immigration Act 
of 1917 was passed. It enacted a literacy test for would-be immigrants 
and it also contained the Asiatic Barred Zone provision that banned 
virtually all immigration from Asian countries. In 1921, the prospect 
of the renewal on mass immigration from Europe led to the passage of 
the Immigration Act of 1921 (a temporary step) and then the Immigration 
Act of 1924 (a permanent step). These laws imposed the first ceiling on 
immigration from Eastern Hemisphere nations in the country's history at 
about 154,000 visas a year. Within the overall cap, the law also called 
for differential country quotas based on national ethnicity that were 
overtly discriminatory. National origins became the basis for admission 
or exclusion under this adopted immigration system.
    The AFL and most national labor leaders strongly supported all of 
these legislative initiatives. For instance, A. Philip Randolph, who 
would soon become president of an AFL affiliated union and who would 
later become a national leader of the civil rights movement in the 
1940s-1960s era, wrote in strong favor of the adoption of these 
restrictive laws. He claimed the nation was suffering from 
``immigration indigestion.'' Mass immigration, he claimed was 
imperiling union organizing and was especially harmful to the economic 
welfare of African American workers who were just beginning to migrate 
out of the South in significant numbers. He even suggested that the 
appropriate immigration level should be ``zero.''
    With the passage of these immigration laws as well as the onset of 
the depression in the 1930s and World War II in the 1940s, immigration 
levels fell dramatically while union membership levels soared to 
unprecedented heights. In the immediate postwar years, the AFL did 
support efforts to admit a limited number of refugees. But it also 
reaffirmed its belief that there was no need to increase the level of 
immigration or to change any of the existing immigration statutes. The 
AFL did strongly criticize the continuation of the Mexican Labor 
Program (popularly known as the ``bracero program'') that had been 
introduced as a temporary guest worker program during the war years but 
had remained operational after the end of the war because it was 
popular with agricultural employers. Organized labor, supported by 
emerging research findings, contended that employers regularly 
undermined the worker protections and wage requirements so that Mexican 
workers were exploited while American workers were discouraged from 
being employed in this industry. In the process, unionization efforts 
were thwarted. The AFL lobbied hard for its termination--which finally 
happened at the end of 1964.
    After the AFL merged with the CIO in 1955, both new combined 
federation did join efforts launched by the Kennedy Administration and 
completed by the Johnson Administration in 1965 to eliminate the 
overtly discriminatory features of the prevailing immigration laws. 
Organized labor concurred with other reform advocates that the 
discriminatory features of these laws were hampering efforts by the 
country to even reach the low immigration ceiling that was in effect. 
Nations with high quotas could not fill them while nations with low 
quotas had massive backlogs. Organized labor supported efforts to find 
a new admission selection system that was not discriminatory. But 
organized labor agreed with the other reform groups of that time that 
there should not be any increase in the low level of overall 
immigration. The politicians that crafted the new legislation assured 
labor and the nation that passage of the Immigration Act of 1965 would 
not lead to a return to mass immigration. But it did--and it continues 
to do so.
    In 1965 the foreign-born population was only 4.4 percent of the 
total population (the lowest percentage in all of American history). 
Union membership, however, was near its all time high--30.1 percent of 
the employed non-agricultural labor force were union members in 1965. 
But both trends were about to be sharply reversed.
    The new legislation introduced family reunification as the basis 
for almost three-quarters of the available visas. The number of 
immediate family members whose numbers were not limited rose far faster 
than were anticipated. Furthermore, there were no enforcement teeth 
included in the new law--which gave implicit sanction to illegal entry. 
There were no penalties for those employers who hired them. Illegal 
entries quickly soared--especially in the Southwest where former 
``bracero'' workers just kept coming--albeit illegally--after the 
program was terminated on December 31, 1964. A new admission category 
for refugees was quickly overwhelmed by political decisions to admit 
vast numbers of persons well beyond what was specified in the law. 
Thus, because there were so many unexpected consequences from the 
legislation adopted in 1965, immigration reform was back on the table 
by the mid-1970s.
    The Select Commission on Immigration and Refugee Policy 
(SCIRP)(also known as the Hesburgh Commission) was created by Congress 
in 1978 in response to a package of legislative proposals by the Carter 
Administration to address the immigration policy crisis. SCIRP's 
findings led to the passage of the Refugee Act of 1980 and set the 
basis for the terms of the Immigration Reform and Control Act (IRCA) 
that was adopted in 1986. The key provision of IRCA was the enactment 
of a system of sanctions that made it illegal for employers to hire 
illegal immigrants. It also provided for what was believed at the time 
to be a ``one-time'' amnesty for those who had entered the country 
while the law was ambiguous. Once more, organized labor strongly 
supported these endeavors and it lobbied hard for their adoption. They 
also pressed for ``an eligibility verification system that is secure 
and non-forgeable'' and expressed strong opposition to ``any new guest 
worker program'' at the 1985 AFL-CIO convention. Following the passage 
of IRCA, the 1987 AFL-CIO convention adopted another resolution calling 
IRCA ``the most important and far reaching immigration in 30 years'' 
and ``applauded the inclusion in that law of employer sanctions and a 
far-reaching legalization program.''
              a brief review of labor's post-1990 position
    When Congress turned to reform of the nation's legal immigration 
system in the late 1980s, organized labor opted not to take an active 
role in the legislative debates for the first time in its history. The 
AFL-CIO did not specify any changes it wanted but it did indicate what 
it opposed. At its 1989 convention, it stated its opposition to any 
efforts to reduce the number of immigrants admitted on the basis of 
family reunification; it opposed any suggestion to increase the number 
of employment-based immigrants--favoring greater investment in the 
nation's education and job training efforts to meet any skilled labor 
needs. It did seek a cap on the number of non-immigrant work visas 
issued to foreign performing talent and their traveling crews.
    When the Immigration Act of 1990 did pass, it slightly increased 
the number of available family-based immigrant visas; it more than 
doubled the number of employment-based visas; it added a new 
``diversity admission'' category for 55,000 immigrants admitted on a 
lottery basis from countries that had had low number of immigrants in 
the preceding 5 years. The cap on the number of nonimmigrant visas for 
performing talent was included.
    At its 1993 Convention, the AFL-CIO drastically reversed itself 
from it past course. It passed a resolution that praised the role that 
immigrants have played ``in building the nation.'' It proceeded to 
demonize unidentified critics of immigration reform--especially critics 
of illegal immigration (which by this time was a national issue again 
despite IRCA). It then called upon local unions to develop programs to 
``address the special needs of immigrant members and potential 
members.'' Clearly, a new immigration position was emerging within the 
leadership of the AFLCIO.
    At the same time, the Commission on Immigration Reform (CIR) (also 
known as the Jordan Commission) had been created by Congress and had 
begun its task of assessing the effectiveness of the existing 
immigration system. It issued a series of interim reports, to which the 
AFL-CIO leadership seemed to be responding. When its final report was 
issued, it concluded that ``our current system must undergo major 
reform.'' It recommended a 35 percent reduction in the annual level of 
legal immigration admissions; elimination of a number of extended 
family admission categories; no unskilled workers be admitted under the 
employment-based admission categories; elimination of the diversity 
admission category; inclusion of a fixed number of refugee admissions 
within the annual admission ceiling; no new guest worker programs; and 
a crackdown on illegal immigration.
    The AFL-CIO responded by rejecting virtually all of these 
recommendations. It even denied that illegal immigrants were to 
adversely affecting the economic well-being of low skilled American 
workers. When Congress responded to the interim reports of CIR by 
introducing legislation in 1996 that sought to codify most of CIR 
recommendations, the AFL-CIO joined with a coalition of business, agri-
business, Christian conservatives and libertarians to separate all of 
the proposed legal immigration reforms from the proposed comprehensive 
bill and then kill them. They them stripped-away the key provisions 
requiring employers to verify the Social Security numbers of new hires 
as a way to combat illegal immigration as well the proposal to limit 
refugee admissions. Thus, organized labor's leadership abandoned the 
efforts to improve the economic circumstances of low skilled workers in 
the country by reducing their competition with illegal immigrants. 
Their explanation was that their organizing efforts in many urban areas 
had led to more contact with concentrations of immigrants--many of whom 
were illegal immigrants. Hence, they concluded that they needed to take 
a more accommodative stance on these key issues that many immigrants 
cared about.
    When the Clinton Administration announced in 1999 that it was 
essentially abandoning worksite enforcement of employer sanctions (and 
the subsequent Bush Administration followed suit), organized labor 
concluded that, as a matter of self-defense, it needed to become an 
advocate for the immigrant community in general and illegal immigrants 
in particular. The labor movement was increasingly finding that 
employers were violating the immigration laws with impunity. Unions do 
not hire employees; employers do--and more and more of them were hiring 
illegal immigrants for low skilled jobs in particular. Under these 
circumstances, unions were either going to have to abandon organizing 
significant sectors of certain industries or they were going to have to 
become supporters of immigrant causes in order to ingratiate themselves 
to those they were seeking to organize. They believed that if unions 
gave up organizing workers who were illegal immigrants, employers would 
have even more incentive to hire illegal immigrants. Thus, organizing 
illegal immigrants is not a matter of principle, it is a matter of 
necessity. Advocating for their protection, they concluded, was simply 
part of the organizing reality they confront.
    At the October 1999 AFL-CIO convention, the pro-immigrant element 
made its move from the convention floor. Unions representing janitors, 
garment workers, hotel workers and restaurant workers argued that the 
labor movement needed to abandon its past and embrace immigrant causes 
if it is to survive. They sought to end the use of employer sanctions 
and they sought to enact another mass amnesty for those who had entered 
illegally since the last general amnesty in 1986. To avoid a public 
confrontation, the issue was deferred until the AFL-CIO Executive 
Council could take up the issue in February 2000. It did so and 
following that meeting it announced that it would seek to have the 
employer sanctions provision of IRCA repealed and that it would fight 
for another general amnesty for most of the millions of illegal 
immigrants in the country at the time. At the leadership level, at 
least, organized labor chose to become a supporter of the immigrant 
agenda--even if that agenda imperiled the economic well-being of vast 
numbers of the American work force.
                        concluding observations
    By 2006, the foreign born population has swollen to 12.1 percent of 
the population and almost 15 percent of the labor force. Union 
membership in 2006 had continued the decline that had begun following 
the passage of the Immigration Act of 1965--falling to only 12 percent 
of the employed nonagricultural labor force. The revival of the 
phenomenon of mass immigration is, of course, not the only explanation 
for the decline in union membership. There are multiple factors--all of 
which are beyond the scope of this testimony. But mass immigration is 
one of the key factors--especially because of the large component of 
the total flow are illegal immigrants (estimated in 2006 to number 
close to 12 million persons, of whom an estimated 7.4 million are 
illegal immigrant workers).
    As the findings of two national Commissions as well as the bulk of 
credible research on the impact of immigration on the nation's work 
force, immigration laws need to be strengthen--not weakened. Employer 
sanctions set the moral tone for the rationale for existence of 
immigration policy as a worksite issue. One has to be eligible to work 
in the United States, not simply want to work in the United States. If 
that is the case, there has to be some way to restrict access to 
employment only to those who are permitted by existing law to work. 
Employer sanctions are designed to accomplish this feat. But to be 
meaningful, they have to be enforced at the worksite. Such inspections 
must become routine. Furthermore, the identity loophole of the use 
counterfeit documents must also be closed. There can be no more 
amnesties (no matter what euphemism is used). There has been no 
ambiguity in the law since 1986. Persons who have brazenly violated the 
law against their employment not only should not be at the worksite, 
they should not even be in the country. Certainly there is no reason to 
legalize their status so that they can continue to complete with 
American workers for whom the workplace is supposedly reserved. If 
illegal immigrants can be kept out of the workplace, there would no 
longer be any dilemma for organized labor to confront. The real onus is 
on government to get illegal immigrants out of the labor force.
    Until that time, however, organized labor seems convinced that it 
has no choice but to abandon its traditional role of the past when it 
sought to monitor the impact of immigration on the well-being of the 
working people of the country. But in the process of becoming an 
advocate for the pro-immigrant political agenda, there is a heavy cost.
    First, it means that it is unlikely that any organizing success of 
immigrant workers will be able to translate in to any real ability to 
improve the wages and benefits of such workers. None of the basic 
parameters have changed. As long as the labor market continues to be 
flooded with low-skilled immigrant workers (many of whom are illegal 
immigrants), unions will not be able to defy market forces that will 
serve to suppress wages and to stifle any opportunity to improve 
working conditions. New recruits will pay dues but they cannot expect 
to see much in the way of material gain form becoming union members.
    Secondly, organized labor will run the risk of alienating itself 
from the millions of low skilled American workers who must compete with 
the waves of unskilled immigrant workers now in the labor market and 
the many more who will continue to seek access to the jobs it has to 
offer. The more organized labor speaks on behalf of illegal immigrants 
the sooner more American workers are going to realize that the labor 
movement does not really have their real interests at heart. Indeed, it 
would be harming them.
    Third and last, the greatest danger that this shift in position 
raises is the prospect that the broader public itself will lose faith 
in the moral credibility of the labor movement. Is it actually a voice 
that speaks for the best interests of all working people (members or 
not) which it often claims to be--or is it just another selfish 
interest group willing to sacrifice the national interest for selfish 
gain? The entire nation has a stake in the struggle to develop a viable 
and enforceable immigration policy. Future generation will be impacted 
by decisions made today. For this reason it would be wise if the 
leadership of organized labor today would reflect on the words of a 
labor leader of the past, John Mitchell, the influential President of 
the United Mine Workers, who in 1903 stated:

          Trade unions are strong, but they are not invincible nor 
        omnipotent. And it is well that they are not so, for the wisdom 
        that they have shown has been largely due to the ever present 
        necessity of appealing to the public for sympathy and support. 
        In the long run the success or failure of trade unions will 
        depend on the intelligent judgment of the American people.

    If the labor movement is to prosper, it should reflect on the 
wisdom of Mitchell's words when it comes to the design of immigration 
policy. In seeking to ally itself in the post-1990s with other societal 
groups that have wider political agendas, the leadership of organized 
labor is now supporting policies that are patently harmful to the well-
being of the nation's labor force. What is bad economics for working 
people can never be good politics for unions. The ``American people'' 
know this.

    Ms. Lofgren. Mr. Serbon.

 TESTIMONY OF GREG SERBON, STATE DIRECTOR, INDIANA FEDERATION 
             FOR IMMIGRATION REFORM AND ENFORCEMENT

    Mr. Serbon. Thank you.
    First off, I would like to state that I do not represent my 
local or the National Union. This is my view on immigration as 
State Director for the Indiana Federation for Immigration 
Reform and Enforcement and also as a union member. Being a 
union construction worker and an immigration activist, I am in 
a unique position because I travel to many different job sites 
and have the opportunity to speak with coworkers about 
immigration, both legal and illegal.
    Union workers have set wages for different trades. Since 
the influx of legal immigrant and illegal alien workers in our 
trade, I have witnessed the wage an illegal alien receives as 
significantly lower than that of what union scales are. Because 
illegal aliens are willing to work for lower wages than an 
American and a legal immigrant who is doing the same job, 
employers are willing to hire an illegal alien over an American 
citizen and a legal immigrant. If an illegal alien is competing 
for the job available, an American citizen and a legal 
immigrant will not get the job. This is just one of many 
problems I see with the current state of legal and illegal 
immigration in America at the present time.
    The language barrier on a job site is a serious safety 
hazard with many illegal aliens not being able to understand 
even simple English. The problem will continue and may become 
worse because Senate bill 1348 does not adequately address the 
requirement to speak English in the current version.
    I have witnessed immigrants taking chances no American 
would take to complete a job; for example, someone using a 
broken piece of equipment or not using personal protective 
equipment when using power tools that could result in an eye or 
a hearing injury. Some of the problems I have mentioned have 
led to higher accident rates among illegal alien construction 
workers. I believe that any law you pass increasing foreign 
workers will only make this problem worse.
    Lately I have been asking my coworkers how they feel about 
this Senate immigration bill 1348 and its provisions to 
increase the amount of foreign workers into the country. 
Congressmen, I have never heard so many angry responses from my 
coworkers in all of the years I have been involved in the 
immigration reform movement. Congress cannot bring hundreds of 
thousands of uneducated, non-English-speaking people into 
America and expect our work environment and living standards to 
remain the same.
    The single biggest complaint from my coworkers is about the 
amnesty or granted earned citizenship for people with no 
respect for the rule of law and a slap in the face to those of 
us who abide by the laws you pass. Lawmakers should never be in 
the position of advocating rewarding law-breaking. Our current 
immigration law does not exempt anyone illegally in America 
from deportation simply because they are hard workers.
    The founder of the AFL, Samuel Gompers, wrote a letter to 
Congress in 1924 concerning immigration. He stated ``America 
must not be overwhelmed. Every effort to enact good immigration 
reform legislation must expect to meet a number of hostile 
forces.''
    Currently, there are two hostile forces of considerable 
strength. One of these is composed of corporate employers who 
desire to employ physical strength at the lowest possible wage. 
They prefer a rapidly revolving labor supply at low wages to a 
regular supply of American wage earners at a fair and livable 
wage.
    The other is composed of organizations, some radical, who 
benefit from illegal aliens. They oppose all restrictive 
legislation, suggesting that the immigration policy of the 
United States should be based in the best interests of 
immigrants, not the best interests of the United States and its 
citizenry.
    America can not sustain mass immigration it is currently 
being asked to receive. We are on the undisputable path to a 
bleak future of limited air quality, limited water resources 
and poor living conditions, failing public education, and any 
resemblance of the American dream. What if so many people 
receive the American dream, and 1 day it were depleted?
    Congressmen, history is repeating itself as this hearing is 
taking place. Self-interest groups are at the table, including 
the U.S. Chamber of Commerce, La Raza, big Corporate America, 
none of which have the best intentions for the American worker.
    My whole reason for being a union member and an immigration 
reform activist is to support the rights of the American worker 
to be first in the job market and require a safe workplace with 
a fair, livable wage. In my opinion, large-scale increases in 
workers you plan to legalize and import will be a serious 
problem to my fellow American workers and to their quality of 
life.
    Thank you.
    Ms. Lofgren. Thank you very much, Mr. Serbon.
    [The prepared statement of Mr. Serbon follows:]
                   Prepared Statement of Greg Serbon
    Congressmen I want to thank you for inviting me to testify before 
the committee and allowing me to share with you my thoughts and views 
on America's immigration problem.
    Being a union construction worker and an immigration activist I'm 
in a unique position because I travel to many different jobsites and 
have the opportunity to speak with co-workers about immigration.
    Union workers have set wages for the different trades. Since the 
influx of legal immigrants and illegal alien workers into our trade, I 
have witnessed the wage an illegal alien receives is significantly 
lower than what union scales are.
    Because illegal aliens are willing to work for lower wages than an 
American and legal immigrant who is doing the same job, employers are 
willing to hire an illegal alien over an American citizens and legal 
immigrant. If an illegal alien is competing for the job available, the 
American citizen and the legal immigrant will not get the job. This is 
just one of many problems I see with the current state of legal and 
illegal immigration in America at the present time.
    The language barrier on the job site is a serious safety hazard 
with many illegal aliens not being unable to understand even simple 
English. This problem will continue and may become worse because Senate 
Bill 1348 doesn't adequately address the requirement to speak English, 
in the current version.
    I've witnessed immigrants taking chances no American would take to 
complete a job. For example someone using a broken piece of equipment 
or not using personal protective equipment when using power tools that 
could result in eye or hearing injury.
    Some of the problems I've mentioned have led to higher accident and 
death rates among illegal alien construction workers. I believe any law 
you pass increasing foreign workers, will only make these problems 
worse.
    Lately I've been asking my co-workers how they feel about the 
Senate's immigration bill 1348 and its provision to increase the amount 
of foreign workers into our country. Congressmen, I have never heard so 
many angry responses from my co-workers in all the years that I've been 
involved in the immigration reform movement.
    Congress cannot bring in hundreds of thousands of uneducated, non-
English speaking people into America and expect that our work 
environment and living standards will remain the same.
    The single biggest complaint from my co-workers is about the 
amnesty. Granting a path to earned citizenship for people who have no 
respect for the rule of law, is a slap in the face to those of us who 
abide by the laws you pass! Lawmakers should never be in the position 
of advocating and rewarding law breaking. Our current immigration law 
does not exempt anyone illegally in America from deportation simply 
because they are hard workers!
    The founder of the AFL, Samuel Gompers, wrote a letter to congress 
in 1924 concerning immigration. He stated America must not be 
overwhelmed! Every effort to enact good immigration reform legislation 
must expect to meet a number of hostile forces. Currently there are two 
hostile forces of considerable strength.
    One of these is composed of corporate employers who desire to 
employ physical strength (broad backs) at the lowest possible wage. 
They prefer a rapidly revolving labor supply at low wages, to a regular 
supply of American wage earners at a fair and livable wage.
    The other is comprised of organizations, some radical, who benefit 
from illegal aliens. They oppose all restrictive legislation suggesting 
that the immigration policy of the United States should be based on the 
best interest of immigrants, not the best interest of the United States 
and it's citizenry. America cannot sustain the mass immigration it is 
currently being asked to receive. We are on an undisputable path to a 
bleak future of limited air quality, limited water resource, poor 
living conditions, failing public education and any resemblance of the 
American Dream. What if . . . so many people received the American 
Dream . . . one day it was depleted?
    Congressmen history is repeating itself as this hearing is taking 
place. The self interest groups are at the table, including the U.S. 
Chamber of Commerce, La Raza (which means ``the race'') who primarily 
represent people who are Mexican, Big Corporate America, none of which 
have the best of intentions for the American worker.
    My whole reason for being a union member and an immigration reform 
activist is to support the rights of the American worker to be first in 
the job market and require a safe work place with a fair, livable wage. 
In my opinion the large scale increase in workers you plan to legalize 
and import, be a serious problem to my fellow American workers and 
their quality of life.
    Thank you

    Ms. Lofgren. Thanks to all of you for your testimony.
    We will now begin our series of questions. Each of us is 
allotted 5 minutes, and I will begin.
    I think that in listening to our labor witnesses, you have 
been actually very clear as to the outlines of what you think 
is required for any future immigration program, and although 
people sometimes say there are divisions in labor, I think 
there are certainly variations on a theme; but really, you have 
been clear and remarkably coherent, consistent, and together on 
that, and so that is very helpful to me as we move forward, 
knowing not only what the point of view is but why.
    One of the things that is being debated in the Senate 
bill--and I am wondering if you have an opinion on it--is this 
point system. It troubles me in a sense because, just as with 
the temporary worker program where working people are sort of 
fungible units instead of individuals, for the future full of 
workers--and they would not just be Ph.Ds. Obviously, they 
would be people with skillsets and the like--they are sort of 
fungible units.
    How do you think that would work in your union environment? 
If the four union representatives could address that.
    Mr. Hiatt. Congresswoman, I do not think that there is 
anything wrong with the concept of a system that actually 
measures the economic need for future flow. In fact, that is 
something that we advocate. I cannot pass judgment on the 
specific formula that has been suggested in the Senate or on 
the specific allocation of points. There are some very 
troubling aspects to it, among which include the fact that 
whatever that formula is would be set in stone for a very 
lengthy period of time and it has no flexibility.
    Ms. Lofgren. So it needs to be reality-based.
    Mr. Hiatt. It has to be reality-based. And I think that if 
you have a reality-based system that truly looks not just by 
employer attestations and employers' saying we need workers 
because we can bring in more vulnerable, exploitable labor that 
way, and you have a truly independent economic analysis of what 
is needed, in what sectors and when, that cannot be satisfied 
at prevailing wages domestically, then it is fine to have----
    Ms. Lofgren. You really need to test the market.
    Mr. Hiatt. That makes sense much more than an arbitrary cap 
or a political compromise. So I like the concept, itself, but I 
think it has to remain flexible and it has to be geared toward 
the economic realities in any given sector at any given time.
    Ms. Lofgren. Five minutes goes so quickly.
    Since you are here, Mr. Wilson, I have a question, and we 
have not really had a chance to ask this.
    We had, at an earlier hearing, Swift & Company testify 
about the ICE raids, and they were a basic pilot company, and 
they testified that they lost $30 million as a consequence of 
the ICE raid, even though they testified that they had tried to 
comply by using the basic pilot. They were not really able to 
testify about the impact of that raid on the individual 
workers, and I think most of those employees were represented 
by UFCW.
    Can you talk about the impact on those workers, both legal 
and undocumented?
    Mr. Wilson. Well, it is hard to do it in the time frame we 
have here, but let me say, I think the biggest problem from our 
perspective with the ICE raids is that you have law enforcement 
officers who essentially scoop workers up and sort them out; 
and so people who were scooped up and taken as part of these 
raids were both legal immigrants and native-born Americans. You 
know, they divided people by the way they looked, and they 
decided you go over here, and you go over here, and we need to 
see your documents.
    It was a very chilling--a very chilling situation that 
happened inside those plants. We had people who were taken 
hundreds of miles away from home simply because they did not 
have their documents with them. When they could prove that they 
were legal, they were left hundreds of miles from home and 
told, ``Okay. You are free. You can go now.'' They were 
provided no transportation home.
    You have heard about the breakup of families where there 
were kids left at schools or at daycare centers, and nobody 
knew who was going to get them or when. But a lot of those 
communities are still facing, you know, real tragedies about 
what happened in the ICE raids, and it is a human disaster. It 
really is.
    Ms. Lofgren. Thank you for that.
    I just want to ask--and maybe I can ask Mr. Feinstein, 
since I have not directed a question to you.
    As to the idea of separating the families from the 
employees on these temporary worker programs in the Senate, 
does eliminating the families provide you protection for the 
workers, that you can see?
    Mr. Feinstein. No, absolutely not, and we are strongly 
opposed to those provisions. Workers coming to this country 
have to be afforded fair and humane conditions, and that 
certainly does not qualify as one.
    Ms. Lofgren. My time is up, and I am going to try to set a 
good example of living within the time frame.
    We have reserved the opening statement of the Chairman of 
the Committee for his arrival.
    Would you wish to give your opening statement now, Mr. 
Conyers, or continue to reserve?
    Mr. Conyers. I would rather wait.
    Ms. Lofgren. All right then.
    We will then turn to the Ranking Member, Mr. King, for his 
5 minutes of questioning.
    Mr. King. Thank you, Madam Chair.
    Again, I thank the witnesses for being here today. I am 
just going to start out by being--I am going to attempt to be 
succinct here.
    When you grant a legalized status to 12 or 20 or more 
million people--and by the way, no one is talking about this as 
the amnesty to end all amnesties. That has already gone by the 
wayside. It is a presumption that this is an amnesty along the 
way to many more amnesties in the future.
    This is a destruction of the rule of law, the most 
essential pillar of American exceptionalism. That is what is at 
stake here with this Senate bill and with what we are 
discussing here in the House, even though we do not have a bill 
before us. It is a destruction of the rule of law. It is a 
destruction of the middle class, and it is a suspension of the 
law of supply and demand. And I have heard it here in this 
testimony, and so I am not going to take care of what I think 
might be the end result for the Republican Party because I do 
not know that there is a majority among the witnesses that 
might be able to speak to that. But I would then just submit my 
first question to Mr. Feinstein, and that would be--no. Let me 
make another presumption.
    I am going to presume that because this law of supply and 
demand has been suspended from the logic calculus of the union 
leadership, I can only come to one conclusion. And if you try 
to be rational about it, it comes to this conclusion: which is, 
I believe, that the leadership in the unions have made a 
political calculus, and that political calculus is we are going 
to have to suspend an increase in wages and benefits for our 
rank-and-file members for a temporary period of time so we can 
get tens of millions of enough people in here who will give us 
the political power to eventually get what we really want.
    So my question then to Mr. Feinstein, first, is: If one 
were to go through your testimony and redact everything that 
grants political power and leverage and influence to the 
unions, what would be left that you are advocating for for the 
general public that Dr. Briggs addressed?
    Mr. Feinstein. Well, I am not sure I completely follow the 
question, but----
    Mr. King. My question simply is, if you take out the 
political influence, the political power and those things, what 
is left? What does the general public look at? Because Dr. 
Briggs testified that he is concerned that the general support 
for unions will be eroded by this new position within the last 
10 years or so. So what is left? What is the general public 
going to see that comes out of here that is really good for the 
average American citizen?
    Mr. Feinstein. Well, our position is that we need to fix a 
broken system, and the impetus, the goal, the objective of the 
reform that is needed is precisely to eliminate the downward 
pressures on the wages and working conditions of American 
workers.
    Mr. King. But you have to suspend the laws of supply and 
demand to do that.
    Mr. Feinstein. Quite to the contrary.
    We feel that the status quo--what is happening now with 
people having to function in the shadows with an underground 
economy that is flourishing, is that there needs to be a fix 
in----
    Mr. King. Then why does your position so dramatically 
disagree with and oppose the philosophies of Gompers, see Cesar 
Chavez, the labor workers for centuries--not centuries, but 
generations in this country; why have you come to this new 
realization of this new position that supply and demand, that 
border enforcement, employer enforcement, keeping a tight labor 
supply; keeping a tight labor supply is good for workers in 
America, organized and not organized, merit shop and union shop 
employees? How can you come to this new conclusion here without 
some new basis for the economy?
    Mr. Feinstein. I would respectfully disagree with the 
analysis that this is a new and different, fundamentally 
different approach. I think that the labor movement has always 
stood for protecting the wages and working conditions of all 
American workers, and we believe that today in this climate 
that we are faced with now requires the kinds of solutions that 
we have proposed----
    Mr. King. My clock is ticking. I wish I had the opportunity 
to complete. I want to quickly say that wages in the packing 
plants in my area used to be matched that of teachers 20 years 
ago. Today they are half that of teachers, Worthington, 
Minnesota, the list goes on. But, Dr. Briggs, can you give me 
some light on this subject matter of how this law of supply and 
demand can be suspended in the minds of the leadership.
    Mr. Briggs. It is hard to understand how you can favor 
amnesty programs that would essentially legitimize the presence 
of illegal immigrants, plus the massive chain migration that 
will come within the next 20 years, a massive infusion of 
people poorly educated, poorly skilled coming into the labor 
market without having awful adverse effects on the bottom of 
the labor market particularly and especially those people in 
the segment of the labor market where the impact of illegal 
immigration is so massive.
    Ms. Lofgren. The gentleman's time has expired. I would turn 
now to Mr. Gutierrez.
    Mr. Gutierrez. Thank you. Thank you to everyone who has 
come from the panel. I would just like to ask Mr. Hiatt, the 
AFL-CIO, John Sweeney in particular, representing the AFL-CIO 
when Senator Kennedy and I introduced the SOLVE Act stood with 
us here outside this very building--it had a temporary worker 
program--could you explain to us what has changed since the 
SOLVE Act?
    Mr. Hiatt. As with AgJOBS, as with all these different 
bills we have to look at all of the elements of the bill and 
the context in which they occur. Even the SOLVE Act had all 
kinds of worker protections which have not existed in any of 
the bills that have been introduced then, several of which we 
would strongly urge be put back into existing bills. But I 
think that what has changed, we look at the trends that have 
existed over the past several years whereby both the 
undocumented immigration, illegal immigration, and guest 
workers have such a depressive effect on wages, on standards.
    Mr. Gutierrez. Just because we are allies, they are not 
going to give me more than 5 minutes to have this conversation. 
I wish with friends they would give more time. I share with you 
concerns about the temporary worker program. The difference 
that I find and I would like you to respond to this is when I 
got here in 1993, the labor movement gave me a response to 
NAFTA. The labor movement said this is what we believe in, and 
the labor movement gave me particular parameters that helped us 
work together.
    Have you submitted to anyone your new worker program to the 
Congress and just what it would look like and the parameters or 
are you just against any new worker program as part of 
comprehensive immigration?
    Mr. Hiatt. Not at all. In fact, you have one of the 
documents we have submitted to the record is our model for 
foreign workers coming in instead of temporary worker programs. 
Because we do see that there is a difference between the 
foreign worker programs on the one hand and illegal immigration 
on the other. It is clearly better to have workers here on 
status, but we do believe there is a much better alternative, 
not that there isn't going to be need for temporary worker and 
permanent worker programs.
    So we do have an affirmative alternative and that is in the 
record, and I alluded to it in my remarks here. It is expanded 
upon in the written testimony. But for permanent jobs, which is 
so much of what you are trying to address in this new 
legislation as opposed to seasonal agricultural short-term 
work, we suggest people come in----
    Mr. Gutierrez. Do you support the AgJOBS proposal?
    Mr. Hiatt. We supported it because the two farm worker 
unions, the UFW and FLOC, have both agreed as much of a 
political compromise as anything else that in order to address 
these problems unique to the agricultural sector that----
    Mr. Gutierrez. So when it comes to the agricultural sector 
you do support the AgJOBS proposal. I just want to make sure 
since the AgJOBS proposal is similar, if not identical in many 
of its aspects, to how we would treat, number one, future flow 
of workers. As a matter of fact, future flow of workers under 
the STRIVE Act would come to this country and, number one, 
would get a 3-year visa renewable for 3 years, be able to come 
with their spouses and family members to the United States. 
After 6 years, they would be able to self-petition. That visa 
that they could would be portable. They would have all of the 
labor rights that any other American worker.
    We included after the SOLVE Act, which the AFL-CIO did 
support, which did have a temporary worker program, we included 
recruitment of American workers as a required creation of a 
commission. New workers may not be employed, same working 
conditions, new workers cannot undermine labor organizing, 
independent contractors could not be allowed. I mean, we 
included many more provisions, I assure you, to protect 
workers.
    And let me just end with this, I think that we have had--I 
have had, anyway, and I know Members of this panel have had a 
very rich experience with members of the AFL-CIO and organized 
labor, and I just want to make sure that as we negotiate, as 
you negotiate a contract for your members, as we negotiate 
something for the undocumented in this country and for future 
flows and our immigrant class in this country, that we take 
into consideration the same political realities that you shared 
with us, Mr. Hiatt, as it referenced the AgJOBS bill when we 
look at the totality of the issue.
    I want to continue to strengthen because I know that we 
have common goals. Thank you so much.
    Mr. Hiatt. We appreciate that, Congressman. We are working 
with your staff and look forward to it.
    Ms. Lofgren. The gentleman's time has expired. The 
gentlelady from Texas, Ms. Jackson Lee, is recognized for 5 
minutes.
    Ms. Jackson Lee. Let me thank the Chairwoman, and as 
always, the Ranking Member. We have had a marathon series of 
hearings which I think provide the grounding for a large, 
challenging journey to comport or to find some reconciliation 
with the Senate bill, and certainly now I think we are going to 
be called the cleanup batters, frankly, because America's eyes 
are now turning to the House of Representatives.
    Might I just make the comment as it relates to labor, 
because your base is diverse. When you go out beyond the 
Beltway, even though leadership has taken a very progressive, 
if you will, proactive response to the immigration issue, when 
you leave and go into your district there is a great deal of 
questioning among working people, among your union members. I 
think you are well aware of that.
    So might I thank you ahead of time for the heavy lifting 
that is going to be required and as well, to extend a hand of 
friendship on how we work together to get the most effective 
people that solves the Nation's problems and really reinforces 
America's values, which is a Nation that provides opportunity, 
a Nation that builds upon her diversity, and is strengthened by 
her diversity.
    So I have a series of questions, and I think you have 
indicated previously in your testimony that, as I understand 
it, that you raise some concerns about the temporary worker 
structure, whether it is called temporary worker or guest 
worker, and frankly, that is, I think, one of the glaring lines 
that most people don't understand.
    They are welcoming, and I think 78 percent of the people 
believe that we should have earned access to citizenship. Their 
neighbors who are working, paying taxes, buying homes, going to 
school. They almost ask why not. And if you look at it from a 
security perspective, wouldn't you want to know who is in your 
neighborhood?
    But help me, I will raise these two questions if the four 
representatives from the union movement would answer these. 
One, what do we do about the temporary worker need from the 
business community perspective and the way it is now 
structured. Number two, in some of our communities, the 
question is raised I am unemployed, I am not a union member, 
why can't I be employed? That is particularly a large question 
in the African American communities, in the underemployed 
communities, in rural communities.
    And so a number of us have been working on this concept of 
a training, work-related, work retention, hire America first, 
some of that language is in there; recruiting of America 
workers, et cetera, so that more people can become stakeholders 
of fixing the broken immigration system. And I would welcome 
your thoughts on how that approach could be utilized as we move 
forward on a comprehensive immigration reform and, Mr. Hiatt, 
would you start, please?
    Mr. Hiatt. Thank you, Congresswoman. Let me try to combine 
the two, an answer to the two questions in one. One of the 
biggest problems under the current system is how easy it is for 
employers to recruit foreign workers without giving a chance to 
domestic workers who would be willing to do that same work at 
decent wages and with decent working conditions.
    They know that they can--they can use labor recruiters who 
will shed all liability from the employer themselves, take on 
all the liability from the employers themselves, to bring in 
workers that can discriminate once they cross the border and 
the recruiters can recruit workers based on age, based on 
gender, based on race or ethnicity without coming under the 
reach of U.S. discrimination laws.
    The employers, under most of our temporary work programs 
today, simply have to attest they have tried looking for 
domestic workers at prevailing wages, can't get them, and they 
have a need, and they are home scott free.
    So we believe that the protections, whether you are talking 
about short-term temporary work where there needs to be a 
temporary worker program, or the incredible expansion that the 
proposals today would look to in expanding so-called temporary 
worker programs to permanent jobs, has to protect the workers 
in your district, U.S. workers in your district by ensuring 
that not only where there is a legitimate need because there 
truly are no workers in the local labor market, but any of the 
other labor markets in this country who are willing to do those 
jobs at decent wages and working conditions.
    Then and only then can you bring in workers. And when you 
do, you bring them in at the same rates at the same conditions 
as domestic workers with permanency so that you don't have two 
tiers, two classes of workers.
    When Congressman King was asking why has the labor movement 
changed on this, on favoring one group of immigrant workers 
over our U.S. born workers, that simply is not the case. We 
believe that we are working on behalf of both sets of workers 
here because we are trying to avoid a two-tiered system.
    Ms. Lofgren. The gentlelady's time has expired. I would 
recognize the gentlelady from California Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair. I want to thank all 
the witnesses for being here today and testifying. I have 
several questions that I want to run through and have a limited 
amount of time, so I ask you all to be brief. The first 
question is a yes-or-no question for all the panelists. Do you 
generally believe the U.S. has done a good job of enforcing 
labor laws respecting wage and hour, workplace safety, and 
rights to organize?
    Mr. Hiatt. No, it has not.
    Mr. Feinstein. No.
    Mr. Wilson. Absolutely not.
    Mr. Goldstein. No.
    Mr. Briggs. An awful job.
    Mr. Serbon. No.
    Ms. Sanchez. Thank you. The second yes-or-no question for 
the entire panel. Would increased enforcement of these laws in 
conjunction with a worker program help improve wages, safety 
and labor rights?
    Mr. Hiatt. Absolutely yes.
    Mr. Feinstein. Absolutely.
    Mr. Wilson. Yes.
    Mr. Goldstein. Yes.
    Mr. Briggs. Of course.
    Mr. Serbon. Maybe.
    Ms. Sanchez. Let the record reflect I almost got unanimity 
on two questions that I asked. My third question is for Mr. 
Feinstein. So long as the employer controls the visa process, 
can we hope to raise workplace standards?
    Mr. Feinstein. No, I don't believe we can.
    Ms. Sanchez. Thank you. Mr. Hiatt, the new temporary worker 
program in the bill currently being debated by the Senate would 
force workers who have worked in the U.S. for 2 years to leave 
the U.S. For 1 year before they could come back for another 2-
year stint. These workers would be forced to leave no matter 
how valuable they had become to their employers or their 
coworkers; for example, if they were working in an organizing 
drive. And I am concerned about the fact that the bill seems to 
treat workers as fungible units rather than the hard working 
individuals they are, that contribute value to businesses and 
to their communities. What impact do you think such a schedule 
would have on labor unions working to organize these workers 
and their U.S. coworkers?
    Mr. Hiatt. We completely share your concern, and just as 
with so many other aspects of these temporary worker programs 
that keep the workers from feeling an investment in their 
communities, investments in their unions, investment with their 
coworkers, it would make it much more difficult.
    Ms. Sanchez. Thank you. When we talk about future flow 
worker programs one of the things that we tend to hear a lot 
about is whether there are enough U.S. workers to do the jobs 
that are needed for our economy, and I agree that there are 
jobs that U.S. workers would take if the wages and the benefits 
were high enough. I don't completely agree with you, Mr. 
Wilson, that every single job is a job that a U.S. worker would 
take if the pay and benefits were high enough, because I think 
that our economy has moved in a different direction in terms of 
information and technology, and it continues to move that way, 
and so I think there comes a balancing point at which you can't 
pay somebody $75 and hour to do certain jobs because then the 
products that result from that, people won't pay the increased 
cost.
    I think in most cases, you are correct, but I don't agree 
100 percent with that statement that you made.
    But one thing that does trouble me is this definition of 
need in terms of sectors where they say they need workers 
because I think that there are U.S. workers that would fill 
some of those jobs, again, if the wages an benefits were high 
enough. I am wondering, Mr. Wilson or Mr. Camacho, perhaps if 
you have any ideas as to how we would ascertain whether there 
was, in fact, a labor need or how you would define need for 
employers who are looking to bring workers from other countries 
to fill those jobs. Any ideas? If you could respond in writing 
at a later date.
    Mr. Goldstein. I am filling in for Mr. Camacho of the 
United Farm Workers, I am Bruce Goldstein with Farmworker 
Justice.
    Ms. Sanchez. My apologies.
    Mr. Goldstein. We believe that employers in agriculture 
need to improve wages and working conditions to attract farm 
workers and retain farm workers and reduce turnover in these 
jobs. Our hope is that if we can pass AgJOBS and legalize most 
of the farm labor force, that the employers in various ways 
will be required both economically and legally to improve 
conditions to stop the high turnover that leads to more 
migration. We intend, through union organizing, to achieve that 
goal, but we will need assistance from Congress in a variety of 
ways and the Administration to promote union organization and 
also to enforce labor laws to take away the incentive that 
employers have to bring in undocumented workers.
    Ms. Sanchez. Mr. Wilson.
    Mr. Wilson. I think there are ways we can ascertain whether 
there is a need, but I say the way you cannot do that is simply 
by an employer attestation. An employer attestation alone will 
not do that.
    Ms. Sanchez. I appreciate your answer. Finally, Mr. Hiatt, 
in the few seconds that remain, if we can eliminate the 
underground economy through a permanent visa program or the 
right kind worker program, how much healthier would our economy 
be in terms of wages, workplace safety, and tax revenue to this 
country?
    Mr. Hiatt. I think it would be significantly healthier, 
Congresswoman. I am not sure I can answer that in numerical 
terms, but there are many studies in addition to all the 
anecdotal evidence about the depressive effect that the current 
policies are having. I don't think there is any question it 
would be a lot healthier.
    Ms. Sanchez. Thank you. I yield back.
    Ms. Lofgren. The gentlelady's time has expired. Mr. 
Ellison, the gentleman from Minnesota is recognized for 5 
minutes.
    Mr. Ellison. Let me thank all of the panelists and not just 
thank you for coming today, but for the work you have done over 
the years. I really appreciate it for working people. I want to 
ask a question that is on topic, but a little slightly--it is 
an issue I haven't heard enough about. You may not be prepared 
to discuss what I will ask you, but I ask you for your best if 
you could.
    How has our trade policy impacted immigration? I know all 
of you are concerned about trade policy, it is something that 
you are focused on. I want to talk about whether American trade 
policy and how it has driven immigration, and I wonder if any 
of you would be willing to offer a viewpoint on the topic. Mr. 
Wilson.
    Mr. Wilson. I would like to touch on that a minute. We 
believe that the enactment and subsequent reaction to NAFTA has 
had a tremendous impact on immigration. That when--I am not an 
economist, but I pretend to be one sometimes, and I would say 
when you drive down the price of corn in Mexico the way we 
have, and you drive people off the farms, people are going to 
look for ways to sustain themselves and take care of their 
families. Part of the reaction to that has been how people have 
migrated from places where they couldn't support themselves, to 
doing what they need to do to come to a place where they can 
support themselves. That has driven a lot of the immigration 
from Mexico to the United States.
    Mr. Ellison. Mr. Wilson have you or any or your colleagues 
on the panel, do you have any documentary evidence, I am not 
asking for evidence of causation, because that is tough, but 
just even correlation. I mean we had one level of immigration 
pre-NAFTA, we got it, an then what happened to the rates after 
that?
    Mr. Wilson. I don't have anything at hand. I am sure there 
are studies out there. We can try to provide that for the 
record.
    Mr. Ellison. Dr. Briggs.
    Mr. Briggs. The mistake, I think, was not including 
immigration as part of NAFTA. I opposed NAFTA because it didn't 
have any labor standards. I think most of our trade policy has 
been a disaster for working people. It has not had any labor 
standards imposed on countries that are being able to produce 
products abroad and bring them into the United States at lower 
cost simply because there are no labor standards those 
countries. Firms in this country have gone there to produce. So 
I think they are linked.
    Mr. Ellison. Right now there are two front burner hot 
topics in Congress, one is immigration, the other one is trade. 
And I would love to hear them talked about together much more 
because my intuition tells me they are tightly linked together. 
Does anybody on the panel have any information on statistical 
information, any kind of regression analysis in terms of what 
impacts and what drives immigration and what impact trade has 
on it. Do you have information on that. Does anybody have any 
information on that. Does anybody know where I can find 
information on that?
    Mr. Hiatt. We will get you some, Congressman.
    Mr. Ellison. Let me ask you this, what does your intuition 
tell you, and I thank you, Mr. Wilson, for jumping out there 
and giving me your views, what does your intuition tell me 
about how important trade policy is on the conversation we are 
having today?
    Mr. Feinstein. I would concur with Mr. Wilson's remarks 
that there clearly is a correlation, an important correlation, 
and often overlooked correlation.
    Mr. Ellison. Why is it so overlooked? It seems like, I 
mean, the common narrative is America is this great job magnet 
and people are coming here just to work, and that sounds like 
that has some level of plausibility. But I also believe that 
people in Mexico probably like their families, their 
communities, and probably don't want to leave them unless they 
have to, yet many of them are. So it can't just be the 
attraction of work here, it must be something going on there, 
and maybe it is related to how--Mr. Hiatt.
    Mr. Hiatt. I was going to say I think it is overlooked for 
much the same reason, that the assumptions about globalization, 
when people talk about the benefits of globalization growing 
the world economy, unfortunately much too often they are 
talking about for a relatively small slice of the world's 
population and ignoring the impact, the negative impacts that 
we are seeing with the widening income gap not only in this 
country, but around the world.
    The potential globalization is fantastic but the realities 
are very much underplayed by the media, by policy makers, and, 
as you say, are not getting enough attention.
    Mr. Ellison. If we accept Mr. Wilson's premise that dumping 
cheap corn and grains in Mexico is wiping out small farmers, 
which is making them have to leave their home to come find 
work, how high--I mean can we ever build a wall high enough to 
address that problem?
    Mr. Hiatt. Not at all.
    But the answer is that you can not separate the enforcement 
of labor and employment laws from the enforcement of 
immigration laws. If you don't do something so that you have 
adequately funded and vigorous enforcement of our labor and 
workplace protections, then no wall is going to deal with these 
immigration problems.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Ellison. Madam Chair, would I be able to submit the 
documentation that I hope to get for the record?
    Ms. Lofgren. Certainly. That is correct. The gentleman from 
California, Mr. Berman, is recognized for 5 minutes.
    Mr. Berman. Thank you, Madam Chair. I apologize for missing 
some of the questions, but very interesting testimony. I agree 
with the Chairwoman about what you said, the Ranking Member, 
just as I was leaving seemed to be making a point about unions' 
support for any status adjustment for the millions of people 
who are now in this country without documents, without status, 
call them what you want, undocumented workers, illegal 
immigrants, that that was--he didn't put it quite that way, but 
I heard it that way, a crass decision to lower, to suppress 
wages and dilute benefits and working conditions in order to 
sign up more members.
    Now one of us, one of us is not in the real world. Those 
people are here. They are having that effect now. And why 
something which under different kinds of conditions that for me 
make it very different than what is referred to as an amnesty, 
but give them a way in which they can legalize their status in 
addition to the tremendous benefits to our country in dealing 
with that problem, gives them more freedom to fight for their 
rights, why that is an action to depress, further depress 
wages, I don't understand. I just wanted to take exception.
    This is not about some new wave, this is about people who 
are here and working now in the situation where they can be 
readily and are, in many cases, exploited, and it is an effort 
to correct that situation. I don't think it is a crass decision 
to sign up members. It is to give these people an ability if 
they want to feel like they can engage in collective bargaining 
and the benefits of that process in order to keep their wages 
and the wages of other workers from being depressed.
    What I would be curious, if the panel, different members of 
the panel could just react to that notion. Mr. Hiatt, if I 
recall correctly, you talked about--there is a distinction here 
that I think you made between the notion of seasonal workers 
and the way we are now talking about temporary workers. When I 
hear people talk about temporary workers, and it is in the 
context of demographics, we are going to have jobs that the 
existing American workforce will not be able to fill.
    They are really--no jobs are permanent in one sense, but in 
the context in which we think about this, they are really 
permanent jobs but we are, and to some extent, the Senate bill 
does this, we have designated the people who will fill those 
jobs as temporary workers. They will be year-round jobs, they 
will continue to exist, but we will funnel workers in those 
jobs and then out of those jobs because temporary means 
temporary.
    So we deem these permanent new jobs to be temporary jobs by 
calling the workers who will fill them temporary workers. And 
that is different than a seasonal kind of work where there may 
be a greater justification for having temporary workers fill, 
perform that work, leave, come back the next season, leave. 
They are also sort of permanent jobs but they aren't full-time 
jobs, and perhaps there are particular difficulties in 
recruiting U.S. workers for those kind of jobs because it 
requires either being employed a large part of the year or 
leaving another presumably permanent job or stringing together 
a series of the right kinds of seasonal jobs that may not be 
very practical.
    I just realize I have talked my time, right. I guess I 
won't even pretend to ask a question.
    Ms. Lofgren. Thank you, Mr. Berman. But it was very 
interesting to listen to.
    Mr. Goldstein. Can I answer? Earlier, Mr. Gutierrez raised 
the question about that very issue and it does need to be 
understood that AgJOBS is about the H2-A provisions of the 
guest worker program, it is about seasonal jobs that by 
definition last 10 months or less. That is not a model for year 
round permanent jobs.
    Ms. Lofgren. The point that Mr. Berman made very 
eloquently.
    Mr. Wilson. If I could add to that briefly. In the case 
that I talked about, the Sam Kane Beef Company, the Bush 
administration Labor Department approved those temporary 
workers for what they described as the ``11-month meat cutting 
season,'' something which we are completely unfamiliar with.
    Ms. Lofgren. The gentleman's time has expired. The point is 
well taken.
    Mr. Berman. It is the Lent month without meat.
    Ms. Lofgren. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Delahunt. I will be very brief. I thank Professor 
Berman for his customary illumination. I think it is 
difficult--I think the whole immigration issue has to be put 
into the context of the globalization of the economy, if you 
will, and I think it is Mr. Hiatt that talked about the 
benefits of globalization seeming to get stuck with a very 
small slither of the population, whether it be domestically or 
internationally.
    We talk about the flow of labor back and forth over 
national boundaries. I found it interesting that President Fox 
from Mexico felt comfortable making the statement by the year 
2020, there will be no immigration into the United States 
because the Mexican economy will absorb; will have need for a 
much more expanded workforce. I would be interested in your 
comments on that particular statement. But at the same time, 
and I pose this to those of you in the labor movement, what is 
happening in terms of the globalization of the union movement.
    There was an interesting piece by Harold Meyerson back 
about a month ago talking about unions for a global economy and 
the mergers going on between two British unions, and I think it 
is the steel workers. If the benefits of trade, of the global 
economy are going to be allocated and diffused throughout 
societies, isn't it going to be necessary for the organized 
labor movement to go global, and when is it going to happen? 
Are there any visionaries left in the organized--within the 
labor movement to proceed in that direction?
    Mr. Hiatt. Congressman, there is a lot of interesting work 
going on in terms of the globalization of the labor movement. 
The example you mentioned, there was a long article about it a 
couple of weeks ago in The Financial Times about the steel 
workers and a couple of those British unions. Even in less 
formal ways, there is collaboration going on between unions and 
the labor movements in the various countries on trade, on world 
migration, and on a lot of these other issues, how to deal with 
multinational companies.
    I think the point that you made is very good, and the point 
that several of you have made about the tie into trade is 
critical because until we have raised the labor standards in 
all these countries, which is at the heart of our trade policy 
and our brother and sister trade union movements' trade 
policies, then there will be a magnet effect in the immigration 
policies of different countries where employers will have it 
easy exploring labor. That is the connection.
    Mr. Delahunt. Let me see if I can reframe it. I hear from 
those that are most concerned about immigration and the hordes 
of immigrants that are invading the country that they would be 
wise to advocate for trade agreements that incorporate labor 
standards and advocate on behalf of the globalization, if you 
will, of labor movements. It would be, I think, an interesting 
effort if we could work together in terms of pushing that 
agenda forward. It will be interesting to see as we proceed 
with this how ardent they are in terms of helping workers in 
other countries so that we don't find ourselves in this 
particular conundrum.
    Mr. Feinstein. If I can add, I certainly agree with that, 
as Mr. Hiatt said, the labor movement is certainly cognizant of 
what you are saying and waking up to the fact that employers 
are global employers, and right now the president of the 
service employees union is in China, and I hear recently in the 
last week, another officer of the union was in Mexico. I think 
there is an increasing recognition that it is absolutely 
critical that the labor movement itself globalize.
    Mr. Goldstein. Just very briefly, The New York Times today, 
page 3 has an article about the Farm Labor Organizing Committee 
organizing in Mexico, and a terrible price being paid for it, 
but it is necessary to be done.
    Mr. Delahunt. I look forward to the Ranking Member and 
others in the minority on this Committee advocating in the 
future for labor standards in trade agreements.
    Ms. Lofgren. The gentleman's time has expired. The Chairman 
of our Committee, Mr. Conyers, we had reserved time for your 
opening statement, if you wish to give one and you also have 
your opportunity to ask questions, Mr. Conyers, should you wish 
to do so now.
    Mr. Conyers. Thank you. It seems like, among the Democrats 
and the Congress, the biggest problem is guest workers. It 
seems like among the Republicans the biggest problem is how do 
we deal with the 12 million that are here. And I would like to 
look at the guest worker problem with you because that is the 
one that is troubling to me.
    Before I do that, I wanted Dr. Briggs to know I received 
his letter and his article. I have glanced at the letter and 
not read the article, but I will be back in touch with you and 
we will continue our discussion. You shocked me by saying that 
you were against NAFTA because they didn't include labor 
immigrant--immigration issues. I was against it for that reason 
and many more. So there may be points in this discussion that 
may be more common between us than meets the eye.
    Mr. Briggs. Sure.
    Mr. Conyers. A hypocritical term, a guest worker, no 
rights. It is almost involuntary servitude. It is an 
embarrassment to the Nation. And here is a nearly evenly 
divided Congress trying to work out the perfect solution which 
obviously, if and when I write a bill, it might contain a lot 
of things that are just not reasonably do-able.
    But give me a brief take on the guest worker provisions 
with my friends of labor, would you please.
    Mr. Hiatt. Congressman, we completely agree with you, it is 
a hypocritical concept and especially when, as Congressman 
Berman was saying, we are talking about coming in for work that 
is not just for a brief guest period, but a long-term period, 
and that is what is so much now of the legislation being 
considered would be. We believe that it is a concept that is 
contrary to everything this country stands for, both in terms 
of the workplace, and in terms of the community as well, the 
notion that people would be expected to come in and not put 
down roots in their communities.
    In our proposal, we appreciate the notion that there need 
to be alternatives to the magnet of illegal immigration. So I 
think that the motivation among many people is fine, but I 
think that you can fix it in a much better way. In the case of 
permanent work, we should look at the green card program that 
exists now, the permanent visa program. If there are permanent 
jobs in certain industries where there really is a need and not 
just a question of trying to attract workers in to work for 
substandard wages and benefits, then bring them in but bring 
them in on a permanent basis with all of the rights of 
permanency from the beginning. It doesn't do any good to say 
there with will be a path for permanency 3 years down the road 
or 6 years. That may be fine for that individual at some point, 
but for the system, it doesn't a do any good because the 
employers are still able to game the system and drive down 
standards during that period of time. That is the problem with 
the guest worker concept.
    Mr. Conyers. Mr. Feinstein.
    Mr. Feinstein. I think we essentially agree with what was 
just said. SCIU and UNITE HERE do not favor a guest worker 
program; they are strongly opposed to it. They recognize the 
need for future workers in this country, and that system has to 
be based on certain fundamental principles. They are quite 
consistent with what was just said.
    Workers coming to this country in the future must be able 
to stay. They must have that option. There must be labor 
protections that are the equivalent to every other American 
worker. There must be mobility. Future workers have to be able 
to move from one employer to the next. And there must be an 
accurate way of determining what is the appropriate number and 
level of people who should be awarded the opportunity to come 
to this country. Those are all critical elements in any kind of 
program of new workers.
    Mr. Conyers. Mr. Wilson.
    Mr. Wilson. I agree with what my colleagues have said, I 
think the problem, and I think you hit the nail on the head, is 
that existing programs are shameful. They are a scandal that if 
anyone would look at, it would make all of us ashamed. But I 
think the problem is that despite writing strong enforcement 
provisions into the law, the truth of the matter is they are 
not enforced and what happens in the real world is people are 
abused and exploited.
    In spite of the best intentions of the things that Congress 
has done, and there is a real disconnect between what we would 
like to have happen for the future and the way people are 
really treated in the workplace.
    Mr. Conyers. Mr. Goldstein.
    Mr. Goldstein. Well, guest worker programs have obviously 
been extraordinarily problematic. In agriculture, they are kind 
of exhibit A for this country, farm workers are exhibit A on 
how guest worker programs tend to operate. There needs to be a 
lot more protections, and they are not in a lot of these 
proposals. I do think that the United Farm Workers Union, for 
years, has--well, some of us farm workers advocates, we prefer 
to abolish guest worker programs altogether, but there is a 
certain reality that sometimes you have to face, some people 
disagree with that proposal, and so the United Farm Workers 
Union has reached a reasonable compromise on agriculture jobs.
    Mr. Conyers. Dr. Briggs.
    Mr. Briggs. I believe the guest worker program is fatally 
flawed and I gave testimony before the Senate 3 years ago on 
this precise issue. I will send you a copy of that, too. Every 
immigration commission has said no more guest worker programs 
and listed all the reasons why these programs cannot be made to 
work. If there is one thing that the research is overwhelming 
on, it is no guest worker programs. With the past experiences, 
these things cannot be made to work. I would urge you to go 
back to the Jordan Commission, that is the best study ever done 
on immigration, and the research done to back up their 
recommendations. All of them overwhelmingly said no guest 
worker programs.
    Mr. Conyers. Thank you. Mr. Serbon.
    Mr. Serbon. Thank you. In my opinion, what reason would an 
American employer employ American citizens when they can 
constantly get a flow of cheap labor, if you want to call it 
that. These people will be exploited. You get 2 years and you 
are gone. They can constantly turn over their workforce. I have 
gone to jobs where the whole workforce was immigrants, illegal 
or legal, whatever, but if they can constantly get new workers 
every 2 years and get rid of the old ones, you are not getting 
any benefits, when you are here, you leave, and it is just 
abuse in my eyes, and I don't like to see anybody abused and I 
believe this system would be abused, and also I believe that it 
seems like H1-B is a program that every time you turn around 
they are trying to increase the numbers and this is what will 
happen with this program in my eyes.
    Mr. Conyers. I can't believe my ears that all of you almost 
agreed with each other. That is an amazing situation. Of 
course, you know the pragmatic problem is that we need a 
zillion people to do the seasonal work, and isn't that, Mr. 
Goldstein, the real thing that keeps us from all doing what we 
all agree ought to be done? Is that just about it? When you 
come--I mean, the agriculture people would hemorrhage if they 
heard this testimony and that we had enough people in Congress 
to really put this program in jeopardy.
    Mr. Goldstein. Right. Of the 2\1/2\ million farm workers, 
1.4 million of them are undocumented. So if you deport every 
one of them, I don't know what agribusiness is going to do, 
create a guest worker program to provide them foreign labor so 
we can produce our fruits and vegetables? I don't know. To me, 
it seems likes AgJOBS is a realistic response to a situation: 
you offer people who are here on undocumented status working in 
agriculture and can prove it and are not criminals, give them 
the chance to learn illegal immigration status by working 3 to 
5 years in agriculture. It is good for employees, its good for 
the country, it is good for workers.
    Mr. Briggs. The problem is if you keep giving agriculture a 
source of extra labor. As the Voss Commission pointed out, the 
fundamental program in agricultural labor, is the people can't 
earn a decent income. The people that work in the industry are 
kept at poverty levels. If you add more workers into that 
industry, even seasonally, you simply reduce the opportunities 
for overtime, you keep no pressure for wages ever too go up, 
and you make it a self-fulfilling prophecy that American 
workers won't do this work. If we had to rely on the market, 
wages would go up. Farm labor costs are an incidental, minor 
part of final products costs----
    Ms. Lofgren. The gentleman's time has expired. I think we 
have concluded but there is a unanimous consent request that 
Mr. Berman, the author of the AgJOBS bill, be allowed to ask 
one question. Without objection, that request is granted.
    Mr. Berman. Could I extend that the unanimous consent 
request just to make a parenthetical comment?
    Ms. Lofgren. If you make it part of your question, yes.
    Mr. Berman. The reason AgJOBS--there is only one reason 
that I was involved with a bill that didn't repeal the H2-A 
program, it is because I couldn't have passed such a bill. And 
my question really for--and the union went through a tortuous 
problem of accepting certain things that are an anathema to 
them in order to get something that was more important.
    My question to Mr. Hiatt, Mr. Feinstein and Mr. Wilson is 
in our search to try--if the five of us and Ms. Sanchez and Mr. 
Delahunt had the power to write this bill, so much of what you 
said I agree with completely, we would do it. If the 
consequence of--I want you to deal with the consequences of 
what is going on right now in the effort to bring up the wages 
of low paid workers and hold certain industries in the United 
States, in the world, we are dealing with in this Congress, 
with this Administration in our pursuit of the most sensible, 
rational logical approach to achieve our values and goals, we 
end up with nothing happening, and what does that mean for 
working people in this country and the country?
    Mr. Hiatt. Congressman, I think if we were talking only 
about agricultural jobs----
    Mr. Berman. I am talking about the whole.
    Mr. Hiatt. I understand. A political compromise that had to 
include the continuation of temporary guest worker programs, 
and we could try to get as many of the protections that, for 
example, we have all agreed to with the immigrant rights 
groups, all the labor movement that has been submitted today 
through the leadership conference on civil rights, there may be 
a compromise there that we could live with, but what is so 
different here that you pointed out, Bruce Goldstein pointed 
out a few moments ago, and I wish I had responded to Mr. 
Gutierrez about is how the political compromise that is under 
discussion now extends the guest worker concept to permanent 
jobs, not just to seasonal and short-term ones.
    So our answer to your question would be that leaving people 
worse off today, leaving our U.S.-born workers and immigrant 
workers worse off today under that type of compromise, would be 
worse than with no bill at all. We would rather wait and fight 
next year, or in 2009, for a bill that does not move us 
backwards.
    Mr. Feinstein. If I could say that the question you pose is 
obviously an enormously important one. The status quo is simply 
not acceptable. It is unacceptable in all the many ways in 
which have been described today, and it is a condition that 
needs to be changed.
    As to whether or not there is sufficient space in this 
political environment to make the kind of changes that are 
necessary, that is the question of the moment. What is going on 
in the Senate, the debate in the Senate gives us all enormous 
concern. But I would say this, that the fact that the 
leadership of this Committee, the Members of this Committee are 
in the middle of this process gives some encouragement and hope 
that if anybody could do it, we are certainly hopeful that you 
can.
    Mr. Wilson. The challenges of how to do a political 
compromise on immigration are enormous. They always have been. 
And I think the main problem with the compromise that is out 
there now is it really is a question of whether we are better 
off with this or better off without this. The challenge we face 
is at every step along the way is to offer the kinds of 
suggestions that can improve it, hoping that it will get better 
and fearing that it might not.
    I don't have an answer for you, but the most critical part 
I would say that we would have to include is to make sure that 
there is the kind of enforcement that really happens, not just 
from the government, but give people a private right of action. 
You have got to do that because the existing regime, not just 
the existing Administration, but the existing regime, is not 
going to make it happen. We are going to have more scandals in 
guest worker programs in the future just as we do today.
    Ms. Lofgren. The gentleman's time has again expired. 
Actually, all time has expired. I would like to thank all of 
the witnesses for their testimony today. Without objection 
Members will have 5 legislative days to submit any additional 
written questions for you which we will forward, and we ask 
that you answer as promptly as you can so that those questions 
can be made part of the record. Without objection, the record 
will remain open for 5 legislative days for the submission of 
any additional materials. I think this hearing today has helped 
a great deal to illuminate the issues that we have before us. 
It is actually extremely interesting that in many points, the 
Democratic and the Republican witnesses see this in the same 
way, and our challenge will be to move forward with a 
comprehensive immigration reform bill that addresses these very 
important issues successfully. So we do thank you for your 
testimony and your time and this hearing is adjourned.
    [Whereupon, at 10:57 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

``The AFL-CIO's Model for `Future Flow': Foreign Workers Must Have Full 
   Rights,'' submitted by Jonathan Hiatt, General Counsel, American 
  Federation of Labor & Congress of Industrial Organizations (AFL-CIO)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


``Q&As on AFL-CIO's Immigration Policy,'' submitted by Jonathan Hiatt, 
General Counsel, American Federation of Labor & Congress of Industrial 
                        Organizations (AFL-CIO)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     ``AFL-CIO Executive Council Statement: Responsible Reform of 
Immigration Laws Must Protect Working Conditions for all Workers in the 
    U.S.,'' submitted by Jonathan Hiatt, General Counsel, American 
  Federation of Labor & Congress of Industrial Organizations (AFL-CIO)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

``Fundamental Worker Protections in Foreign Temporary Worker Programs'' 
         by the Leadership Conference on Civil Rights, May 2007

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 ``Graft Mars the Recruitment of Mexican Guest Workers'' by Elisabeth 
            Malkin, The New York Times, May 24, 2007, page 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  ``Close to Slavery: Guestworker Programs in the United States,'' by 
           Mary Bauer, the Southern Poverty Law Center, 2007

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Prepared Statement of Terence M. O'Sullivan, Laborers' International 
     Union of North America (LIUNA) General President, May 24, 2007

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
